<html>
<title> - STATUS OF THE YUCCA MOUNTAIN PROJECT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         STATUS OF THE YUCCA
                          MOUNTAIN PROJECT

                             HEARING

                           BEFORE THE

               SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                             OF THE

                     COMMITTEE ON ENERGY AND
                            COMMERCE
                    HOUSE OF REPRESENTATIVES


                   ONE HUNDRED NINTH CONGRESS

                       SECOND SESSION
                       
                       _____________
                       
                      MARCH 15, 2006
                       
                       _____________

                     Serial No. 109-71
                       _____________

Printed for the use of the Committee on Energy and Commerce









Available via the World Wide Web:  http://www.access.gpo.gov/congress/house

                       ______________
                       

                 U.S. GOVERNMENT PRINTING OFFICE

27-589PDF                 WASHINGTON : 2006
______________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001




                           COMMITTEE ON ENERGY AND COMMERCE
                              Joe Barton, Texas, Chairman
Ralph M. Hall, Texas                           John D. Dingell, Michigan
Michael Bilirakis, Florida                       Ranking Member  
  Vice Chairman                                Henry A. Waxman, California
Fred Upton, Michigan                           Edward J. Markey, Massachusetts
Cliff Stearns, Florida                         Rick Boucher, Virginia             
Paul E. Gillmor, Ohio                          Edolphus Towns, New York             
Nathan Deal, Georgia                           Frank Pallone, Jr., New Jersey      
Ed Whitfield, Kentucky                         Sherrod Brown, Ohio        
Charlie Norwood, Georgia                       Bart Gordon, Tennessee  
Barbara Cubin, Wyoming                         Bobby L. Rush, Illinois      
John Shimkus, Illinois                         Anna G. Eshoo, California               
Heather Wilson, New Mexico                     Bart Stupak, Michigan                   
John B. Shadegg, Arizona                       Eliot L. Engel, New York 
Charles W. "Chip" Pickering,  Mississippi      Albert R. Wynn, Maryland             
  Vice Chairman                                Gene Green, Texas
Vito Fossella, New York                        Ted Strickland, Ohio          
Roy Blunt, Missouri                            Diana DeGette, Colorado  
Steve Buyer, Indiana                           Lois Capps, California  
George Radanovich, California                  Mike Doyle, Pennsylvania  
Charles F. Bass, New Hampshire                 Tom Allen, Maine 
Joseph R. Pitts, Pennsylvania                  Jim Davis, Florida      
Mary Bono, California                          Jan Schakowsky, Illinois
Greg Walden, Oregon                            Hilda L. Solis, California
Lee Terry, Nebraska                            Charles A. Gonzalez, Texas      
Mike Ferguson, New Jersey                      Jay Inslee, Washington      
Mike Rogers, Michigan                          Tammy Baldwin, Wisconsin   
C.L. "Butch" Otter, Idaho                      Mike Ross, Arkansas     
Sue Myrick, North Carolina
John Sullivan, Oklahoma
Tim Murphy, Pennsylvania
Michael C. Burgess, Texas
Marsha Blackburn, Tennessee
                        Bud Albright, Staff Director
                       David Cavicke, General Counsel
             Reid P. F. Stuntz, Minority Staff Director and Chief Counsel
                                  _____

                    SUBCOMMITTEE ON ENERGY AND AIR QUALITY
                       Ralph M. Hall, Texas, Chairman
Michael Bilirakis, Florida                     Rick Boucher, Virginia           
Ed Whitfield, Kentucky                          Ranking Member
Charlie Norwood, Georgia                       Mike Ross, Arkansas
Barbara Cubin, Wyoming                         Henry A. Waxman, California
John Shimkus, Illinois                         Edward J. Markey, Massachusetts 
Heather Wilson, New Mexico                     Eliot L. Engel, New York
John B. Shadegg, Arizona                       Albert R. Wynn, Maryland
Charles W. "Chip" Pickering,  Mississippi      Gene Green, Texas 
Vito Fossella, New York                        Ted Strickland, Ohio
George Radanovich, California                  Lois Capps, California
Mary Bono, California                          Mike Doyle, Pennsylvania
Greg Walden, Oregon                            Tom Allen, Maine
Mike Rogers, Michigan                          Jim Davis, Florida
C.L. "Butch" Otter, Idaho                      Hilda L. Solis, California  
John Sullivan, Oklahoma                        Charles A. Gonzalez, Texas 
Tim Murphy, Pennsylvania                       John D. Dingell, Michigan
Michael C. Burgess, Texas                       (Ex Officio) 
Joe Barton, Texas
  (Ex Officio)
  
  
  















                                               CONTENTS
                                               
                                               _________

                                                                    Page
                                                                    
Testimony of:
  Sell, Hon. Clay, Deputy Secretary, U.S. Department of Energy....    15
  
Additional material submitted for the record:
  Sell, Hon. Clay, Deputy Secretary, U.S. Department of Energy, 
    response for the record.......................................    33











































                                   STATUS OF THE YUCCA 
                                    MOUNTAIN PROJECT
                                        _________
                                        

                                WEDNESDAY, MARCH 15, 2006

                               House of Representatives,
                            Committee on Energy and Commerce,
                         Subcommittee on Energy and Air Quality,                      
                                                               Washington, DC.


   The subcommittee met, pursuant to notice, at 3:00 p.m., in Room 
2123 of the Rayburn House Office Building, Hon. Ralph Hall (chairman) 
presiding.
   Members present: Representatives Hall, Shimkus, Otter, Sullivan, 
Burgess, Barton (ex officio), Boucher, Markey, Engel, Capps, Allen, and 
Dingell (ex officio).
   Staff present: Annie Caputo, Professional Staff Member; Sue Sheridan, 
Minority Senior Counsel; Bruce Harris, Minority Professional Staff 
Member; and Peter Kielty, Legislative Clerk.
   Mr. Hall.  It looks like everybody is here.  All right, Mr. Boucher.  
All right, the subcommittee will come to order, and I would like to 
welcome Deputy Secretary Clay Sell to this committee.  Without objection 
the subcommittee will proceed pursuant to Committee Rule 4E, which allows 
members the opportunity to defer opening statements for extra questioning 
time, if they would like.  We would like that, and I am sure that the 
witness would like that.  The Chair recognizes himself for an opening 
statement.  First, I want to thank Ranking Member Rick Boucher, Chairman 
Barton, Ranking Member Dingell, and the full committee for their help in 
setting up this hearing.
   Yucca Mountain is a very necessary solution for how to dispose of our
Nation's nuclear waste.  We can't allow this program to falter.  We owe 
it to our children and to our grandchildren to live up to the commitment 
to build a safe and secure repository.  Anything short of that, I think, 
shrinks our responsibility to future generations and forces them to cope 
with our failure and threatens the viability of nuclear energy to meet 
their energy needs.  There are those who wouldn't object to that 
happening, that failure taking place, and we just absolutely have got 
to see that it does not take place.
   It is also an issue of fairness, making sure that our constituents 
get what they pay for.  Right now utility rate payers are paying into 
the Nuclear Waste Fund to build a repository for spent fuel disposal.  
However, taxpayers are beginning to shoulder the burden for DOE's 
failure in accepting spent fuel for disposal.  Of the more than 60 
lawsuits against DOE for this delay, DOE has settled two and lost one.  
So far the cost to the taxpayer is around $141 million over the last 
two years.  These numbers are only going to increase as more of these 
lawsuits are resolved, potentially costing taxpayers as much as a half
a billion dollars each year for waste that should already be stored in 
Yucca Mountain.  This means that rate payers are paying for a service 
they haven't received and taxpayers are footing the bill for the delay.
   Today's hearing is an opportunity for us to examine the problems 
facing Yucca Mountain.  The Administration may propose legislation to 
solve some of these challenges, and I encourage my colleagues to use 
this hearing to gain a better understanding of the issue before us in 
preparation for possible legislative action.
	[The prepared statement of Hon. Ralph Hall follows:]

Prepared Statement of the Hon. Ralph Hall, Chairman, Subcommittee on 
            Energy and Air Quality

   The Subcommittee will come to order.  I would like to welcome 
Deputy Secretary Clay Sell to this Committee.  Without objection, 
the Subcommittee will proceed pursuant to Committee Rule 4(e), which 
allows Members the opportunity to defer opening statements for extra 
questioning time.  
   The Chair recognizes himself for an opening statement.  First, I 
want to thank Ranking Member Rick Boucher, and Chairman Barton and 
Ranking Member Dingell of the Full Committee for their help is setting 
up this hearing.  
   Yucca Mountain is a necessary solution for how to dispose of our 
nation's nuclear waste.  We can't allow this program to falter.  We 
owe it to our children and grandchildren to live up to the commitment 
to build a safe and secure repository.  Anything short of that shirks 
our responsibility to future generations, forces them to cope with our 
failure, and threatens the viability of nuclear energy to meet their 
energy needs.
   It is also an issue of fairness: making sure that our constituents 
get what they pay for.  Right now, utility ratepayers are paying into 
the Nuclear Waste Fund to build a repository for spent fuel disposal.  
However, taxpayers are beginning to shoulder the burden for DOE's delay 
in accepting spent fuel for disposal.  Of the more than 60 lawsuits 
against DOE for this delay, DOE has settled two and lost one.  So far, 
the cost to the taxpayer is $141 million over the last two years.
These numbers are only going to increase as more of these lawsuits are 
resolved, potentially costing taxpayers as much as a half a billion 
dollars each year for waste that should be stored in Yucca Mountain by 
now.  This means that ratepayers are paying for a service they haven't 
gotten, and taxpayers are footing the bill for the delay.  
  Today's hearing is an opportunity for us to examine the problems 
facing Yucca Mountain.  The Administration may propose legislation to 
solve some of these challenges, and I encourage my colleagues to use 
this hearing to gain a better understanding of the issue before us in 
preparation for possible legislative action.  I remind all Members of 
the opportunity to ask questions for the record following the hearing.  
I have asked the committee staff to quickly pull together those 
questions that come in.  Deputy Secretary Sell, I ask you to please 
respond to those questions as soon as you can.  I look forward to 
working with you, and listening to your testimony today.


   Mr. Hall.  I remind all members of the opportunity to ask questions 
for the record following the hearing, and without objection they will be 
allowed and authorized, and I thank the witness.  He has agreed that he 
will honor those as we submit them to him, and I have asked the 
committee staff to quickly pull together these questions that come in.  
Deputy Secretary Sell, I am going to ask you to please respond to these 
questions as soon as you can in a reasonable length of time.  I thank 
you and I look forward to working with you, and I certainly look forward 
to hearing your testimony today.  And the time it took to prepare it, 
the years that you have made yourself available, the vast experience you 
have behind us that you are giving to your Nation, I thank you for it and 
I think everybody ought to really appreciate it.  At this time I would 
recognize Mr. Boucher for an opening statement.
   Mr. Boucher.  Well, thank you very much, Mr. Chairman, and let me 
thank you also for convening today's hearing on the problems of the Yucca 
Mountain Nuclear Waste Repository Program.
   Given the Administration's recent budget request, which includes both 
funding for Yucca Mountain and for a new proposed program entitled the 
"Global Nuclear Energy Partnership," I think a status report to this 
committee from DOE is clearly in order at this time.  I strongly support 
the Yucca Mountain Repository Program, and I am concerned about a number 
of matters that are affecting the now long delayed opening of this facility.  
Let me just review a little bit of that history. In 2002, Yucca Mountain 
was certified as the site for the Nation's repository for spent nuclear 
fuel; however, there currently is not a projected date on which the 
facility's operations will commence.  The Nuclear Waste Act set an 
original date of 1998 for opening of the repository, and by missing 
that date, the Department of Energy was found to be in breach of its 
obligation to open at that time.  More recently, the Department has 
indicated that it hoped to file a license application for Yucca Mountain 
with the Nuclear Regulatory Commission by December of 2004, and then to 
begin accepting waste at the site in 2010.  The target for filing the 
license application was missed and the Department no longer believes the 
date 2010 for opening the repository is realistic.
   Now, I understand that the delay in filing for the license can be 
attributed to a number of legitimate concerns, such as a court invalidation 
of the Environmental Protection Agency standard for radiological protection,
a standard which is currently being revised.  And in addition, the 
Department is undertaking a review of the design of the repository.  
Despite the legitimacies of this delay, I am concerned that the Department 
is at this point unable to provide an estimate of when the license may be 
filed and of when the repository will be open.  Perhaps Mr. Sell can 
advise us with regard to the Department's current thinking on these
matters.
   In addition, the longstanding issue of funding for the Yucca Mountain 
Project continues to be of concern.  While the balance in the Nuclear 
Waste Fund is currently $19 billion, annual appropriations for the Yucca 
Mountain work are only a small fraction of the amount that rate payers 
are contributing to the fund on an annual basis.  This year, for 
example, the Administration has proposed a total of $544 million for the 
Nuclear Waste Disposal Program, but only $156 million of that amount 
derives from the Nuclear Waste Fund.  The balance of it actually comes 
from the Department of Defense.  Congressional budget rules place the 
Nuclear Waste Fund on budget, and expenditures are subject to annual 
appropriations, which themselves are governed in a general way by the 
category allocations that come from the Budget Resolution.  As a result 
of that structure, spending requests for Yucca Mountain have to compete 
with funding requests for other Department of Energy programs, and that 
obviously provides difficulty when appropriations are being considered 
by the Appropriations Committee.
   Over the past number years, legislative proposals to take the Yucca 
Mountain fund, that Nuclear Waste Fund, off budget have been debated by 
this committee, but have come to no resolution, largely because of 
opposition coming from other committees in the Congress, the Budget 
Committee and the Appropriations Committee.  And so we remain in a 
circumstance where we have to compete with other DOE programs to get 
annual expenditures from a fund that is funded by rate payers of the 
utilities.
  I very much look forward to Mr. Sell's testimony today.  Hopefully, 
he will give us projected dates for filing the license application 
with the Nuclear Regulatory Commission, and also perhaps a projected 
date under which this repository can at long last be opened.  I also 
look forward to hearing more from him about the Administration's 
proposed Global Nuclear Energy Partnership, and I want to echo concerns 
that were voiced by a number of members of this committee during the 
hearing with Secretary Bodman last week about the effect that the new 
GNEP Program may have on the Yucca Mountain Program.  While I 
understand that the Administration has touted its new proposal as 
being complimentary to the Yucca Mountain Repository Program, it 
remains unclear if the Department has the financial and personnel 
resources to carry forward both programs simultaneously.  And I think 
that we have to be very careful about authorizing the origination of a 
new massive program such as GNEP at a time when the Yucca Mountain 
Program itself has undergone delay after delay and is certainly at the 
present time not sailing along very smoothly.
   So, Mr. Chairman, there is a lot of ground to be covered with 
regard to Yucca Mountain, and I think this hearing is, in fact, very 
timely and I want to commend you for organizing it and thank Mr. Sell 
for being our witness this morning.  Thank you, and I yield back.
   Mr. Hall.  I thank the gentleman.  The Chair recognizes the 
gentleman from Idaho, Mr. Otter.
   Mr. Otter.  Mr. Chairman, I would yield to Mr. Dingell.
   Mr. Hall.  Excuse me.  Would you pardon me a minute?  I didn't note 
that Mr. Dingell is here.  Mr. Dingell, we recognize you at this time, 
the Ranking Member.
   Mr. Dingell.  Mr. Chairman, you are most gracious.  I thank you and 
I commend you for holding this hearing to examine the status of the 
Department of Energy's program to develop a repository for the disposal 
of nuclear waste at Yucca Mountain, Nevada.  This program has been 
underway since Congress enacted the Nuclear Waste Policy Act of 1982.  
It has collected something like $25 billion from the ratepayers and it 
is pivotal to our country's ability to depend on nuclear energy now and 
in the future.  As a matter of fact, this program has been around 
almost as long, Mr. Chairman, as you and I have, and it means that it 
is probably within, perhaps, 10 years or 15 years of retirement age.  
I would also like to welcome Deputy Secretary Clay Sell, welcome, whom 
I hope will be able to enlighten us on the current state of the program.
   I would observe that many of the problems at Yucca Mountain, missed 
deadlines, litigation resulting for program delays, difficulties with 
the Environmental Protection Agency's radiation standards, and funding 
issues, predate you and your tenure and that of Secretary Bodman at DOE.  
While you and the Secretary are to be commended for tackling these 
problems, I must say that several recent events, on the watch of this 
Administration, cause me serious concern.
   First, I am concerned that DOE currently cannot even provide 
Congress with an updated estimate of either the date on which it plans 
to file an application for a license with the Nuclear Regulatory 
Commission, or the date on which we might expect that the repository 
will open.  I hope your testimony will lead to some answers to those 
questions.  I understand that DOE has undertaken a broad internal 
review of its Yucca Mountain Program.  While this recalibration may 
improve the program in the long term, I would observe, as my old 
daddy used to, the perfect often is the enemy of the good, and 
continued delays can undermine the public and congressional 
confidence.
   Second, as I have stated in the past, I am concerned about the 
adequacy of the program funding and the possibility that the Nuclear 
Waste Fund is subject to abuse.  I had hoped that the Department would 
send up location in time for the Congress to consider it during this 
abbreviated legislative session, which I am told will consume 
approximately 60 working days.  But I would observe that I have hopes, 
but I would observe that I lack optimism on this matter.
   I would like to go on record once again with my concern that 
Yucca Mountain receive adequate annual appropriations, and my support 
for the legislation to prevent pillaging, both of the $19 billion in 
past rate payer contributions in the corpus of the Nuclear Waste Fund 
and future contributions.  I would observe that this has been seen by 
both the Administration, the Office of Management and Budget, our dear 
friends on the Budget Committee and the Appropriation Committee, as a 
wonderful place for money to be taken from to be applied to other 
purposes.
   Finally, I reiterate the concerns I voiced to Secretary Bodman 
last week at the full committee budget hearing about Global Nuclear 
Energy Partnership, with which, I understand, you are deeply involved.  
In my tenure in this committee, I have seen a number of ambitious and 
costly energy programs undertaken with great hopes.  A few of these 
have succeeded, but many have failed.  I hope this program proves to 
be useful.  I remain concerned, however, that it may prove to be 
simply a distraction for the Department that prevents it from 
fulfilling its responsibilities under the Nuclear Waste Policy Act 
of 1982 and the recently enacted Energy Policy Act of 2005.  I would 
observe that seeing the legislative language and having hearings on 
this would be immensely useful in understanding what it is that is 
going on at the Department.
   It is always tempting, I have observed, to undertake shiny new 
programs, rich in the theoretical promise, but we do have only one 
Department of Energy.  I would be much more comfortable if this new 
initiative entailed a Yucca Mountain license application having been 
filed with NRC and legislation to protect the Nuclear Waste Fund had 
been enacted, and settlements have been reached with utilities to 
staunch the bleeding from legal damages for program delay.  And I 
would observe that this program is hemorrhaging money because of 
litigation, because the money has been diverted and because the 
government has not been able to address these problems.
   As it is, there are multiple outstanding questions about when 
the Yucca Mountain Program will go forward, whether ratepayers 
will ever see the light at the end of the tunnel in terms of their 
responsibility to pay into the waste fund, and whether or not the 
fund can be protected from raids by the Committee on Budget and the 
Committee on Appropriations.  The last week, which probably 
requires--rather, this last task, which probably requires 
legislation, is unlikely to succeed without significant and 
unwavering support from the Administration, including the Office 
of Management and Budget, which has yet to send a bill up to aid 
the Congress in its efforts.
   Mr. Chairman, I want to thank you for your patience with me, 
I want to thank my colleagues for their patience with me, and I 
want to observe that I look forward to hearing from you, Mr. 
Secretary, the answers to the questions that I have raised here, 
and I hope that we will be enabled by this meeting, and others 
like it elsewhere and here, to make some progress on addressing 
the problems that we are talking about today.  Mr. Chairman, I 
thank you.
   [The prepared statement of Hon. John D. Dingell follows:]

Prepared Statement of the Hon. John D. Dingell, A Representative 
in Congress from the State of Michigan

   Mr. Chairman, thank you for holding this hearing to examine 
the status of the Department of Energy's (DOE) program to develop 
a repository for the disposal of nuclear waste at Yucca Mountain, 
Nevada.  This program has been underway since Congress enacted the 
Nuclear Waste Policy Act of 1982; it has collected something like 
$25 billion from ratepayers; and it is pivotal to our country's 
ability to depend on nuclear energy now and in the future.
   I would like to welcome Deputy Secretary Clay Sell, whom I hope 
will be able to enlighten the Subcommittee on the current state of 
the program.  Certainly many of Yucca Mountain's problems � missed 
deadlines, litigation resulting from program delays, difficulties 
with the Environmental Protection Agency's (EPA) radiation 
standards, and funding issues � predate your and Secretary 
Bodman's tenure at DOE.   While you and the Secretary are to be 
commended for tackling these problems, I must say that several 
recent events on your watch cause me grave concern.
   First, I am concerned that DOE currently cannot even provide 
Congress with an updated estimate of either the date on which it 
plans to file an application for a license with the Nuclear 
Regulatory Commission (NRC) or the date on which we might expect 
the repository to open.  I understand DOE has undertaken a broad 
internal review of its Yucca Mountain program.  While this 
recalibration may improve the program in the long term, the 
perfect often is the enemy of the good and continued delays can 
undermine public and Congressional confidence.
  Second, as I have stated in the past, I am concerned about the 
adequacy of program funding and the possibility that the Nuclear 
Waste Fund is subject to abuse.  I had hoped that the Department 
would send up legislation in time for Congress to consider it 
during this abbreviated legislative session, and I remain hopeful 
if not optimistic.  I would like to go on record, once again, with 
my concern that Yucca Mountain receive adequate annual appropriations, 
and my support for legislation to prevent pillaging of both the 
$19 billion in past ratepayer contributions in the "corpus" of the 
Nuclear Waste Fund and future contributions.
  Finally, I reiterate the concerns I voiced to Secretary Bodman 
at last week's full Committee budget hearing about the Global Nuclear 
Energy Partnership, with which I understand our witness has been 
deeply involved.  In my tenure on this Committee, I have seen a 
number of very ambitious and costly energy programs undertaken with 
high hopes.  A few of these have succeeded, but many have failed.  
I hope this program proves useful.  I remain concerned, however, 
that it may prove a distraction for the Department that prevents it 
from fulfilling its responsibilities under the Nuclear Waste Policy 
Act of 1982 and the recently enacted Energy Policy Act of 2005.  
   It is always tempting to undertake shiny new programs, rich with 
theoretical promise, but we only have one Department of Energy.  
I would be much more comfortable with this new initiative, if a 
Yucca Mountain license application had been filed with the NRC, 
legislation to protect the Waste Fund had been enacted, and 
settlements had been reached with utilities to staunch the bleeding 
from legal damages for program delays.  
   As it is, there are multiple outstanding questions about when 
the Yucca Mountain project will go forward, whether ratepayers 
will ever see the light at the end of the tunnel in terms of their 
responsibility to pay into the Waste Fund, and whether or not the 
Fund can be protected from raids by the Committee on the Budget 
and the Committee on Appropriations.  This last task, which 
probably requires legislation, is unlikely to succeed without 
significant and unwavering support from the Administration, which 
has yet to send up a bill to aid Congress in its efforts. 
   With that, I thank my colleagues and look forward to the 
Deputy Secretary's testimony.

   Mr. Hall.  I thank the long-time, venerable Chairman of this 
committee.  The Chair recognizes Governor Otter of Idaho for an 
opening statement.
   Mr. Otter.  Thank you, Mr. Chairman.  I am going to yield 
my opening statement for question and answer time later on.  
Thank you.
   Mr. Hall.  Fine.  The Chair recognizes the good doctor 
from Texas.
   Mr. Burgess.  Thank you, Mr. Chairman, and I will do 
likewise, other than that I want to say welcome to the Deputy 
Secretary and I appreciate everything you have done with the 
Administration.  Thank you.
   Mr. Hall.  Now, if we have that same response from 
Mr. Markey, I would be surprised, but we will offer Mr. Markey 
the opportunity to say a few words.  Mr. Markey.
   Mr. Markey.  I thank you, Mr. Chairman.  The Yucca Mountain 
nuclear waste dump proposal is in a shambles, and it is a shambles 
created both by the law under which this program operates and the 
willful mismanagement of this program by the Department.
   In 1987, Congress amended the Nuclear Waste Policy Act to 
limit the Nation's search for a permanent geological nuclear 
waste repository to Yucca Mountain, Nevada.  That decision was 
not based on science, it was based on politics, on the fact that 
the congressional delegations from the other States previously 
under consideration were able to use their political muscle to 
pass the nuclear queen of spades on over to the State of Nevada, 
as chosen by this committee; a politician.  It is inevitably a 
fool's errand when real scientists are asked to validate 
scientific decisions made by politicians for reasons of 
political expediency.  And that is the cause of the entire 
mess right from the beginning, that this committee selected 
Nevada, not scientists.
   And so after 20 years of studies, we still don't know 
whether the site is safe, let alone whether we can safely 
transport all of the waste from the reactor sites across our 
roadways and railways to the mountain.  What we do know is that 
if Yucca Mountain opens, we will have to move almost 80,000 tons 
of waste to the site.  That would require about 53,000 truck 
shipments and 10,000 rail shipments over about 25 years through 
cities and counties where nearly 250 million people live; 
Sacramento, California, Buffalo, Denver, Chicago, and of course 
Nevada.
   Before he was elected the first time, President Bush wrote: 
"I believe sound science, not politics, must prevail when it comes 
to the designation of any high-level nuclear waste repository."  
And he went on to write: "As President, I would not sign 
legislation that would send nuclear waste to any proposed site 
unless it has been deemed scientifically safe."  Once elected, 
however, President Bush did not follow his pledge.  It is clear 
that unsound science is prevailing at Yucca Mountain and in the 
Bush White House.  Consider some of the scientific problems that 
have come to light.  The court threw out EPA's first radiation 
protection standards because they were not strong enough to protect 
the public from radiation exposure and they failed to follow the 
recommendations of the National Academy of Sciences.
   EPA responded to this court decision by issuing proposed new 
standards for the Yucca Mountain site which are wholly inadequate, 
do not meet the law's requirements, and do not protect the public 
health and safety.  In fact, EPA is proposing the least protective 
public health radiation standard in the whole world.  And numerous 
scientific and quality assurance programs, transportation problems, 
corrosion of casks, effectiveness of materials, and many other 
issues caused DOE to suspend work on the surface facilities and 
the Nuclear Regulatory Commission to issue a stop order on the 
containers.  And DOE has been forced to acknowledge that documents 
and models about water infiltration at Yucca have been falsified.
   So what is the Administration's response to these failings?  
Apparently the Administration is going to try to rewrite the 
Nuclear Waste Policy Act to cook the books in order to legitimize 
the selection of Yucca Mountain, even though it can't pass muster 
based on the scientific and technical standards in current law.  
At the same time, the Administration is coming in with a 
pie-in-the-sky Global Nuclear Energy Partnership that it claims 
will provide us with a new technological magic bullet that will 
make all of Yucca Mountain's failings fade away.  This GNEP 
Program is a multi-billion dollar boondoggle that will bust the 
budget, undermine our Nation's nuclear nonproliferation policies, 
and not provide us with a realistic solution to the nuclear 
waste problem.
   It is time for Congress and the Administration to recognize 
the Yucca Mountain Project is not going to work and that we need 
to go back to the drawing board to come up with better 
alternatives to deal with the Nation's nuclear waste problems; 
that we do not sacrifice sound science for political expediency.  
This Administration is destroying our nuclear nonproliferation 
policy.  We know it is willing, on this past six-years record, to 
compromise environmental standards in their vain effort to bury 
all the nuclear waste in the United States in this site in Nevada, 
but unfortunately, we will still be here 20 years from now.  
This is my 30th year in Congress, so I intend on spending my 
50th year in a hearing on this very same subject, and I think 
that the chances of that coming to pass are very high given the 
record of this Administration.  I thank you, Mr. Chairman.
   Mr. Otter.  [Presiding]  The gentleman's time has expired.  
The chair would recognize the gentlelady from California, 
Ms. Capps.
   Ms. Capps.  Thank you to my colleague from Idaho.  And, 
Mr. Chairman, I welcome the witness, Secretary Sell, here today.  
Mr. Chairman and Mr. Secretary and others, Yucca Mountain 
continues to pose a threat to public health and safety.  This 
subcommittee must take seriously its commitment to oversight 
and address the serious concerns raised by the Yucca Mountain 
Project.  First and foremost, we must ensure that both public 
health and the environment are protected by establishing 
appropriate radiation standards.  EPA's first attempt at doing 
so failed to comply with the National Academy of Sciences' 
recommendations, and the D.C. circuit subsequently struck down 
the so-called standards.  Sadly, EPA's current standard 
proposal, which is still not finalized, also falls short.  One 
nuclear expert has warned that the standards would not adequately 
protect the public from cancer risks.
   Technical and logistical problems continue to plague the 
project as well.  The Department of Energy halted all work on 
the site in January, as we know, because of quality assurance 
problems, and further concerns about potential terrorist acts on 
the transportation of nuclear waste continue to reduce confidence 
in the Yucca Mountain Project.  Last month, NAS called on the 
Department to analyze this potential threat.  As you know, 
California and my constituents bear a disproportionate share of 
the risks since the project is less than 20 miles from out 
State's border.  Even leaving aside potential terrorist attacks, 
moving any nuclear waste through California across our roads and 
waterways should give us all pause.
   I have a nuclear plant in my district.  Contained within the 
reams of DOE documents on Yucca Mountain are the plans to load 
barges of nuclear waste from Diablo Canyon Nuclear Power Plant 
in my district.  The barges would steam down through the Santa 
Barbara Channel, on the way to Ventura County, where the waste 
would be off-loaded and transported by truck to Nevada.  I am 
deeply concerned about planning for such a scenario because I 
don't believe it has been very thorough.  Let me cite just one 
example.  The dry-cask storage containers that will carry this 
waste are tested to withstand submersion in water.  I haven't 
found any tests, submersion tests, for these casks at anything 
like the depths of the Santa Barbara Channel where the barges 
would travel.  So what happens if there is an accident there 
and a number of these concrete containers find themselves at 
the bottom of the channel, a channel which, by the way, is 
prone to earthquakes, as is Diablo Canyon?  Will they be able 
to withstand the depths?  Can we retrieve them?  And how safe 
would the channel and the surrounding area be?  This scenario 
could be played out in different forms in congressional 
districts across this country, only maybe it is an accident 
in a town or on the side of a mountain.
   I don't believe we should be subjecting communities across 
the country to the dangers Yucca Mountain presents.  I have 
little faith in the scientific studies behind this project, that 
they are sound, and not much more faith that it can be carried 
out safely and effectively.  So I propose that we do this the 
right way, with strong science, thorough planning, and adequate 
public input.  And so I thank you for holding the hearing and 
the witness for being here today.  I yield back.
   Mr. Otter.  The gentlelady yields back.  Mr. Shimkus of 
Illinois.
   Mr. Shimkus.  Thank you, Mr. Chairman.  I think I will wait 
for my questions.
   Mr. Otter.  The gentleman from New York, Mr. Engel.
   Mr. Engel.  Well, thank you, Mr. Chairman for convening 
this important hearing on the status of the Yucca Mountain 
Project.  Like many members in Congress, my beliefs regarding 
the use of Yucca Mountain as a nuclear repository site has 
evolved over the years.  Although I have supported the use of 
Yucca Mountain in the past, I now have serious reservations 
about the viability of this project and I hereby withdraw my 
support.
   Nearly 20 years have passed since Congress first selected 
this site for the long-term geological disposal of the Nation's 
radioactive waste, and the planning for actually utilizing this 
site has been fraught, as my colleagues have mentioned, with 
problems and has lacked full transparency.  We have been told 
that the DOE still has no projected date to commence operations 
at Yucca.  The repository is being redesigned again and before 
work can start, a new license will need to be obtained from the 
NRC.  And from that point, the NRC could take another three 
years to decide whether to authorize construction at Yucca 
Mountain.  A once firm date of 2010 for Yucca Mountain to 
accept nuclear waste has long since been abandoned.  Before 
construction even begins, DOE must upgrade roads, improve the 
electric supply, communications and the transportation around 
Yucca Mountain; so even more delays.
   This begs the question, what exactly is taking so long and 
where is all the money going?  Six and one half billion dollars 
have already been spent from the Nuclear Waste Fund on the Yucca 
Mountain Program, with very little to show from it.  Further, 
while DOE has conservatively estimated it will take about 
$58 billion more to complete the project, that figure is met 
by widespread doubt in every sector.  Additionally, the longer 
DOE fails to accept spent fuel, the higher the costs will be 
relating to settling lawsuits from utilizes who counted on DOE 
fulfilling their commitment to accept the spent fuel.  Since 
missing the original January 31st, 1998 deadline, DOE has been 
served with over 60 lawsuits and has already paid out $141 
million to settle some of them.  In this time of scarce 
resources, the government cannot afford to lose any money 
such as this.
   I look forward to hearing from the Deputy Secretary about 
how he envisions the proposed Global Nuclear Energy Partnership 
and how that will be integrated with the Yucca Mountain Project, 
as well as the latest legislation the Administration is working 
on to facilitate the licensing, construction, and operation of 
Yucca Mountain.  In short, it is a mess.  I can no longer 
support this kind of mess.  Our effort to safely dispose of 
nuclear waste must have a clear plan with responsible 
stewardship of the taxpayers money, and I again welcome the 
secretary to our subcommittee, and I thank you, Mr. Chairman.
   Mr. Otter.  The gentleman yields back.  There is no other 
members of the committee here, so members of the committee, I 
would like to introduce you to Mr. Clay Sell.  Since February 
2004, Mr. Sell has served as the Special Assistant to the 
President for Legislative Affairs, specializing in coordinating 
and promoting the President's legislative agenda in the United 
States Senate, with a primary focus on policy area of the energy 
and natural resources budget and appropriations.  Previously, 
Mr. Sell had served on the Bush-Cheney transition as part of 
the energy policy team.  And from 1995 to 1999, he served on 
the staff of Congressman Mack Thornberry, our colleague from 
Texas, functioning the last two years as the congressman's 
Administrative Assistant.  Mr. Sell, welcome to the committee.  
Mr. Sell was sworn in as the Deputy Secretary on March 21st, 
2005.  We welcome you to the committee and await your remarks.  
Mr. Sell.

STATEMENT OF THE HON. CLAY SELL, DEPUTY SECRETARY, UNITED 
  STATES DEPARTMENT OF ENERGY

  Mr. Sell.  Mr. Chairman and members of the subcommittee, it 
is a pleasure to be here today to provide an update on the 
Department--
  Mr. Boucher.  Mr. Sell, could you move your microphone 
just a bit closer?  That would help.
  Mr. Sell.  Closer or further?
  Mr. Boucher.  Yes, a little closer to you would help.
  Mr. Sell.  Is that better?
  Mr. Boucher.  That is much better.  Thank you.
  Mr. Sell.  It is a pleasure to be here today to provide 
an update on the Department of Energy's Yucca Mountain Project.  
If I may, I would like to submit my written statement for the 
record and provide a few summary remarks.
  Mr. Otter.  Without objection and hearing none, so ordered.
  Mr. Sell.  The President has stated a policy goal of 
promoting a great expansion of nuclear power here in the 
United States and around the world.  The reasons for this 
are obvious.  The Department of Energy projects that total 
world energy demand will double by 2050.  In focusing 
specifically on electricity, projections indicate an increase 
of over 75 percent in global energy consumption in the next 
two decades.  Nuclear power is the only mature technology of
significant--to provide large amounts of completely emissions
-free base-load power to meet this need; thus, a significant 
expansion of nuclear power will allow us to meet both our 
energy and environmental goals.
   I believe the United States is on the verge of a nuclear 
renaissance, in many respects, due to the provisions enacted 
in the Energy Policy Act of 2005.  And on that note, I would 
like to thank and acknowledge the work of the members of 
this committee for your efforts in crafting and passing 
this important piece of legislation.  As a result of that, 
I believe new plants will be built; however, we need many 
new plants and the only way to ensure a significant amount 
of new plant construction in this country is to finally 
resolve the issue of spent fuel.  To do so, we must license 
and operate the Yucca Mountain site as soon as possible.
   In my remaining remarks, I would like to focus on four 
main points.  First, the importance of Yucca Mountain as a 
matter of national policy; second, an explanation of how we 
have redirected the program; third, the recent proposed 
Environmental Protection Agency radiation protection 
standards; and fourth, the Administration's forthcoming 
Yucca Mountain legislation.
   First, on the importance of the Yucca Mountain.  Today's 
spent nuclear fuel and high-level waste is being temporarily 
stored at 122 sites in 39 States across our Nation.  As the 
members of this subcommittee know, the U.S. Government is 
obligated by law to consolidate and dispose of the 50,000 
metric tons of spent fuel already generated, as well as the 
2,000 additional tons being generated annually.  As of late, 
there has been some speculation over whether or not we still 
need Yucca Mountain, in light of the waste minimization 
benefits of the Administration's recycling proposal that 
was included in the recently announced Global Nuclear Energy 
Partnership.  The simple fact is this: Yucca Mountain is 
needed under any cycle scenario.  As successful as the new 
recycling technologies may be under GNEP, there will always 
be a waste byproduct that needs disposal.  This Administration 
is committed to the success of the Yucca Mountain Project and 
we will not waver from that position.
   As part of that commitment, last year we announced a 
redirection of the project to focus on safety, simplicity, 
and reliability.  This included adopting a predominantly 
clean canistered approach to spent fuel handling operations.  
Under this approach, a single canister would be used to 
transport, age, and dispose of the waste without ever 
needing to reopen the spent fuel package.  We also announced 
that in order to better organize and focus our scientific 
work, Sandia National Laboratory was chosen to act as the 
lead laboratory on the project.  Also, last year the EPA 
proposed a revised radiation protection standard.  The 
revised standard retains the existing 10,000 year 
individual protection standard at 15 millirems per year; 
it retains that and it supplements it with an additional 
one million year standard applicable at the time of peak 
dose.  The proposed standard, even one million years from 
today, keeps the exposure limit at what residents of 
Denver, Colorado already receive as a result of high 
levels of naturally occurring background radiation.  
These changes and programmatic redirections have 
resulted in schedule changes.  Later this summer the 
Department expects to have a new design for the surface 
facilities at Yucca, as well as a schedule for submission 
of the license application to the NRC that supports this 
approach.
   To compliment our new project direction, the 
President's 2007 Budget stated that the Administration 
would send to Congress proposed legislation to facilitate 
the licensing, construction and operation of the repository 
at Yucca Mountain.  The proposal is currently undergoing 
final review, but we expect to address the permanent 
withdrawal of land around Yucca Mountain, as well as needed 
funding reform, in the legislation.  This potential 
legislation, coupled with the waste minimization benefits 
of recycling spent fuel, could postpone, indefinitely, the 
need for the United States to begin a second repository 
siting and development effort.  As this committee is 
well aware, there are more than two dozen States where we 
would look to site a second repository.
   In conclusion, there is an undeniable need for Yucca 
Mountain.  To meet this need, the Department is taking 
steps today to ensure that we develop and construct the 
safest, simplest repository that we possibly can, based 
on sound science and quality work.  But we must also have 
the help and support of the Congress and of this committee 
to remove funding uncertainties and other constraints that 
have hindered consistent progress.  On this, we look 
forward to working closely with this committee on the 
forthcoming legislation.  Thank you, Mr. Chairman.  This 
concludes my opening statement.  I look forward to taking 
your questions.
   [The prepared statement of Hon. Clay Sell follows:]

   Prepared Statement of the Hon. Clay Sell, Deputy Secretary, 
   U.S. Department of Energy

   Mr. Chairman and members of the Subcommittee, it is a 
pleasure to be here today to provide an update on the 
Department of Energy's Yucca Mountain Project.  
   For more than 50 years, our Nation has benefited 
greatly from nuclear energy and the power of the atom, but 
we have been left with a legacy marked by the generation 
and accumulation of more than 50,000 metric tons of 
commercial and defense generated spent nuclear fuel and 
high level waste.  Today, I will address the following 
topics in my opening statement:
  First, the importance of Yucca Mountain for the Nation
  Second, an explanation of the clean-canistered approach 
  Third, the selection of Sandia National Laboratories as 
  the Project's lead laboratory
  Fourth, a discussion of the proposed Environmental 
  Protection Agency (EPA) Radiation Protection Standards
  Fifth, the development of a baseline and schedule for 
  the Project
  Sixth, an update on potential Yucca Mountain legislation

The Importance of Yucca Mountain to the Nation
   There has been a lot of speculation whether or not we 
still need Yucca Mountain in light of the announcement of 
the Global Nuclear Energy Partnership (GNEP) or the 
possibility of longer term on-site storage of waste at 
reactor sites.   
   The clear answer is, yes, we still need Yucca Mountain.  
In fact, we need Yucca Mountain today more than ever.  This 
Administration and the Department of Energy are committed to 
aggressively moving forward with Yucca Mountain.
   Yucca Mountain is consistent with the global consensus 
that the best and safest long-term option for dealing with 
high-level waste is geologic isolation.  The National 
Academy of Sciences has spoken on this topic and has 
endorsed geologic disposal since 1957.  
   Yucca Mountain is the key to reducing our dependence 
on foreign and fossil sources of energy, as nuclear power 
is the only technology that is mature and capable enough 
today to handle a significant increase in base load and 
is also reliable, clean, safe, and emissions-free.  
Nuclear power offers this country a tremendous resource 
and a means towards energy security�if we are able to 
deal with the waste issue.  
  Today spent nuclear fuel and high level waste is 
being temporarily stored at 122 sites in 39 States across 
our Nation.  In 2002, Congress approved President 
George W. Bush's recommendation for development of 
Yucca Mountain.  That recommendation was based on more 
than 20 years of scientific research indicating that 
Yucca Mountain provides a safer and more secure location 
for the Nation's nuclear waste than the current temporary 
surface storage facilities, many of which are located 
near lakes, rivers, and waterways.  
   Yucca Mountain is needed even if the technologies of 
GNEP exceed its initial expectations, and Yucca will be 
needed under any fuel cycle scenario.  As successful as 
we may be with GNEP, there will always be a waste 
bi-product that needs disposal as part of the recycling 
activities.  
   Moreover, we need Yucca Mountain as soon as possible 
so we can start fulfilling our obligation to consolidate 
and dispose of the 50,000 metric tons of spent fuel 
already generated, as well as the 2,000 additional tons 
being generated annually.  Simply put, we must move 
forward with Yucca Mountain.

The Clean-Canistered Approach
  In mid-2005 Secretary Bodman directed a thorough 
review of the Department's overall approach to design, 
licensing, and operation of the Project to determine if 
there were better ways to run the repository.  
  Late last year the Department announced a redirection 
to a predominantly clean-canistered approach on spent 
fuel operations.  Under this new approach, a single 
canister would be used to transport, age, and dispose 
of the waste without ever needing to re-open the spent 
fuel package.  We believe that this approach will be a 
simpler, safer, and more reliable operation. 
   The clean-canistered approach will significantly 
reduce the risks of radiation exposure and contamination 
from spent fuel handling operations at the repository.  
With this plan, the spent nuclear fuel primarily will be 
packaged for disposal by the utilities that generated 
the waste.  This approach offers the advantage of having 
those who know most about the waste - the generators - 
be responsible for placement in canisters and packaging.  
We would thus take advantage of commercial reactor sites 
with existing capability and skills.  The Department 
will not need to build new equipment and train operators 
for a capability that already exists in the private 
sector.  We are working with industry to develop the 
specifications for a canister that can contain commercial 
spent nuclear fuel after it is discharged from the 
reactors and cooled.  In addition to requiring fewer, 
cleaner, and simpler surface facilities, the new facility 
approach should be easier to design, license, build, 
and operate.
   While this approach will have significant short-term 
and long-term benefits, it will require additional time 
to redevelop and revise portions of the license application.  
Later this summer the Department expects to have a new 
conceptual design for the surface facilities at Yucca 
Mountain that support this approach.

Sandia Lead Laboratory
  The Department also announced that Sandia National 
Laboratory will act as the lead laboratory to coordinate 
and organize all scientific work on the Project.  Since 
this Project represents one of the major scientific and 
technical challenges of our time, we want to ensure that 
we take full advantage of the great resources in our 
national laboratories.  Additionally, to ensure that we 
keep a critical eye on our work, we are continuing efforts 
to instill a "trust but verify" culture.  Part of this effort 
will lead to the formation of a University-based consortium 
to independently review key aspects of the Project to ensure 
objectivity and impartiality.

Proposed EPA Radiation Protection Standards
  On August 22, 2005, the Environmental Protection Agency 
(EPA) proposed a revised "Public Health and Environmental 
Radiation Protection Standards for Yucca Mountain" in 
response to a decision by the U.S. Court of Appeals for 
the District of Columbia Circuit which vacated portions 
of the existing EPA standards.  Specifically, EPA proposed 
a radiological exposure limit for the time of peak dose 
to the general public during one million years following 
the disposal of radiological material at the Yucca 
Mountain site.
   The proposed rule retains the existing 10,000-year 
individual protection standard of 15 mRem/year to the 
reasonably maximally exposed individual, and supplements 
it with an additional standard applicable at the time of 
peak dose.  This proposed rule includes two compliance 
periods and recognizes the limitations of bounding 
analyses, the greater uncertainties at the time of peak 
risk, and the increased uncertainty in calculated results 
as time and uncertainties increase.  Retaining the 
existing 15 mRem/year standard for the initial 10,000-year 
period ensures that the repository design will include 
all prudent steps, including the use of engineered and 
natural barriers, to minimize offsite doses during the 
first 10,000 years after disposal.  These natural barriers, 
and to some extent the engineered barriers, will continue 
to operate throughout the million-year period, keeping 
exposure levels low.  In fact, this level of exposure 
reflects a risk that society already lives with today - 
the maximum peak dose at Yucca Mountain would be no 
greater than the level currently received by residents 
of Denver, Colorado due to the city's higher levels of 
naturally occurring background radiation.  

Development of a Baseline and Schedule
Although the Yucca Mountain Program had intended to 
submit a license application to the Nuclear Regulatory 
Commission (NRC) in December 2004, a number of issues 
arose that prevented this, including development of 
the amended draft EPA radiation protection standards 
as discussed earlier, redesign of the surface facilities 
to handle primarily canistered waste, and other matters 
that need to be addressed before we are ready to submit 
a license application.  We believe that submission of 
our license application should not be driven by 
artificial dates.  We are committed to developing a 
realistic schedule that will result in the submission 
of a strong license application to the NRC.  We expect 
to receive and review our new design this spring and, 
after its approval by the Secretary, incorporate it 
into our baseline.  Later this summer, we anticipate 
we will publish our schedule for submittal of the 
license application to the NRC.

Proposed Yucca Mountain Legislation
  To complement the current approach and assure 
confidence in moving forward with Yucca Mountain, the 
President's 2007 Budget stated that the Administration 
will send to Congress proposed legislation that would 
facilitate the licensing, construction and operation of 
a repository at Yucca Mountain.  
  The proposal is still in the interagency review 
process.  We can expect it to address the permanent 
withdrawal of land around Yucca Mountain as well as 
needed funding reform.  This potential legislation, 
coupled with the potential of GNEP for waste 
minimization, could postpone indefinitely the need 
for the U.S. to begin a second repository siting and 
development effort.  As the committee may recall, 
there are more than two-dozen States where we would 
look to site a second repository.
  Enactment of this important proposal will help 
demonstrate that the Nation can dispose of nuclear 
materials in a safe, reliable, and efficient manner,
and will help advance the Nation's energy security, 
and national security objectives.
Conclusion
  In conclusion, there is a clear National need for 
Yucca Mountain, even if we could reduce our National 
electricity consumption by 20% and were able to shut 
down every commercial reactor and nuclear project in 
the country today.  We are taking steps to ensure 
that we develop and construct the safest, simplest 
repository that we possibly can, based on sound 
science and quality work.  I believe that our license 
application will provide the necessary assurances that 
we can operate Yucca Mountain in compliance with the 
performance requirements of the Environmental Protection 
Agency and the Nuclear Regulatory Commission.  We will 
also demonstrate that our approach to operations will 
be carefully planned, logical, and methodical.  

  Mr. Otter.  Thank you, Mr. Sell, for that opening 
statement, and the chair would recognize himself for 
the first five minutes to begin the question and 
answer period.  Mr. Sell, I am sure other members of 
the committee who are not here would want to submit 
questions to you and I would ask you now that if they 
do submit those questions to you, that you would 
respond, for the record, to those questions in writing.  
They are going to write little notes to you, little 
love notes, probably, but probably not.
  Mr. Sell.  I will respond whether they are love 
notes or otherwise.
  Mr. Otter.  Thank you.  Because Yucca Mountain has 
been designated as the location of the Nation's permanent 
repository and because of the preparations that have 
already been made, is there any chance that the Department 
would support legislation authorizing the Department to 
establish an interim storage facility very close to 
Yucca Mountain?
  Mr. Sell.  Mr. Chairman, the Administration and this 
Department has an open mind as it relates to interim 
storage.  Under the Nuclear Waste Policy Act which 
governs our activities today, it is our view that we do 
not have authority, as it stands now, to proceed with 
interim storage, but we certainly have an open mind as 
to that possibility, if it be the will of Congress.
  Mr. Otter.  So in other words, if I understand you 
right, in order to keep the contracts that the Department 
of Energy and the Department of Defense have made with at 
least the State of Idaho, and some scheduling programs 
that they have already made with other sites, that if 
the legislation were advanced to Congress to establish 
an interim storage site close to Yucca Mountain, in 
proximity to Yucca Mountain, that the Administration 
would not oppose that.
  Mr. Sell.  We would certainly look forward to working 
with the Congress, and I think it is certainly possible 
that we would support that.
  Mr. Otter.  Is sometime later this summer the closest 
we can get to a potential revealing of a date and new 
standards for Yucca Mountain?
  Mr. Sell.  In short, Mr. Chairman, yes, because we 
want to be quite sure that when Secretary Bodman and I 
put forward a revised schedule, it is one that we are 
confident we will be successful with and it is one 
that we are confident will ultimately result in the 
granting of a license by the Nuclear Regulatory 
Commission.  We are revising the program with the 
goal of absolute success in mind, and we would ask 
the indulgence of the committee to allow us to take 
this next few months to finalize the schedule that we 
would then like to come brief the committee on.
  Mr. Otter.  In order so that we don't have a replay 
of what happened with the first standards, is the 
Department of Energy now working with the EPA to establish 
the new standards so it is not challengeable in the courts?
  Mr. Sell.  Well, the requirement to set the standard is 
one that goes to the EPA and not to the Department of 
Energy.  We will be the licensee that will be required to 
meet that standard.  The standard that is now out for 
comment is one that we think is--it is one that we believe 
we can license the facility to and we would look forward 
to proceeding with the license application under that 
standard.
   Mr. Otter.  Thank you.  The Yucca Mountain Program 
recently assumed ownership of a large cell at the Idaho 
National Lab.  Do you know how the Department of Energy 
intends to employ and use that?
   Mr. Sell.  I am sorry, Mr. Chairman, I don't think 
I understand the question.
   Mr. Otter.  The cell that the Department of Energy 
recently assumed ownership over at the Idaho National 
Laboratory, I was wondering if you could advise myself 
and the committee on what intent, what future intent 
does the Department of Energy have for the use of that 
building?
   Mr. Sell.  This is a new building that could 
potentially be used for the consolidation of material.
   Mr. Otter.  It could?
   Mr. Sell.  Did I understand that correctly?
   Mr. Otter.  It could?  Is that your intent?
   Mr. Sell.  This is a facility, if I understand 
the facility correctly that you are talking about, 
this is one that has previously been used for the 
storage of material.  If my memory serves me correctly, 
there was a previous decision made to consolidate 
material elsewhere and remove material out of that 
facility.  I believe last year the Congress directed 
through the Appropriations Bill that we reconsider the 
use of that facility for the consolidation of material, 
and that a review is going as we speak, a review which 
has not resulted in any conclusions.
   Mr. Otter.  Thank you, Mr. Sell, and my time is up.  
The chair would recognize the Ranking Member.
   Mr. Boucher.  Well, thank you very much, Mr. Chairman, 
and, Mr. Sell, thank you for appearing today and for your 
testimony.  I have just several brief questions for you.  
You have indicated in your testimony that the Department 
of Energy will apply to the Nuclear Regulatory Commission 
for the Yucca license, you believe, sometime this summer.  
Can you project a date for us?  Can you project a month 
when you think that application will be filed?
   Mr. Sell.  If I may clarify?
   Mr. Boucher.  Yes, please do.
   Mr. Sell.  Congressman Boucher, this summer we expect 
to provide the Congress and this committee a revised 
schedule as to when we would make the application to 
the Nuclear Regulatory Commission.  So this summer we 
will have a better idea on what the schedule is, but 
the license application will not be made this summer.
   Mr. Boucher.  Do you think it will be made this year?
   Mr. Sell.  Once again, we are seriously reviewing 
what we think is possible and what we think we can be 
successful with and what our requirements are to meet 
that.  That review is not complete and I would not 
want to prejudge the determination that we will make 
as to the appropriate time to make the license 
application.
   Mr. Boucher.  When this summer will you be in a 
position to give us this further briefing?
   Mr. Sell.  I believe we are projecting that to be 
in the June, July time frame.
   Mr. Boucher.  June, July time frame.  So, Mr. 
Chairman, perhaps we could have a subsequent hearing in 
that time frame, in order to receive some indication 
from the Department of Energy about when the license 
will be applied for, and perhaps at that point be able 
to project a date when you actually could have this 
repository open.
   Mr. Sell.  I would look forward to the opportunity 
to testify at a future hearing on that.
   Mr. Boucher.  Okay.  You have also indicated that 
the Administration may be formulating legislation that 
could be submitted to the Congress that would help move 
the Yucca Program forward.  Can you give us any 
indication of when that legislation might be submitted?
   Mr. Sell.  I believe when Secretary Bodman testified 
last week, he indicated that that legislation would be 
forthcoming within a month, and that is still our belief.
   Mr. Boucher.  When that legislation is received here, 
will it address funding reform?  If it is going to 
address funding reform, are you going to propose to 
take the Nuclear Waste Fund off budget?  And assuming 
that you are, which is what we have been trying to do 
for a number of years here, will your proposal to take 
it off budget differ in material respects from the 
legislation we have considered here in the past?
   Mr. Sell.  We are looking at a number of options 
that would provide greater funding certainty, which 
has been a chronic problem for this program.  At a 
minimum, what we intend to propose would be consistent 
with the legislative proposals we have made in the 
last two years, which would effectively make the annual 
receipt to the Nuclear Waste Fund directly available to 
the program.  I appreciate that there are strong views 
from this committee that the entirety of the waste fund 
should be taken off budget, and we are looking at that, 
but I can't say with any confidence that that is a 
proposal we will be able to make and that we will be 
able to include.  But certainly we want to provide as 
much funding certainty as possible, and we would look 
forward to working with the committee on the 
appropriate way to do that.
   Mr. Boucher.  Well, let me say I am one of those who 
has strong views on that matter and I would encourage 
you, as you are formulating this proposal, not only to 
take the fund off budget prospectively so that annual 
contributions made by rate payers would immediately be 
made available to the Yucca Program in that year, but 
that you also protect the approximately $19 billion 
which is deposited in the Nuclear Waste Fund today, 
which, in the absence of some statutory guarantee 
that it will be made available, it may never be 
appropriated for that purpose.  So I hope you will 
take care of the $19 billion that the rate payers 
have already put into this program, as well as what 
they will contribute to it in the future, and I 
don't expect you to comment on that, but that is 
advice.
   Mr. Sell.  Well, if I may comment?
   Mr. Boucher.  And please do, yes, if you care to.
   Mr. Sell.  I certainly share with you the firm 
commitment that the contributions that the rate payers 
have made, the roughly $18 billion, be used exclusively 
for the Yucca Mountain Project, and that the money be 
set aside in a way that we can have confidence that 
that will occur, and that as much funding certainty 
be provided as possible so that we can eliminate that 
variable which has affected our ability to make 
consistent progress on the project.
   Mr. Boucher.  Well, thank you.  That is encouraging 
to hear and I hope your legislative proposal reflects 
that intention.  You were recently quoted as saying that 
the one mil per kilowatt hour fee that rate payers are 
paying currently into the Nuclear Waste Fund may not be 
sufficient, which suggests that the Department of 
Energy may be considering an increase in that one mil 
per kilowatt hour fee.  Are you considering such an 
increase?  Do you think one will be forthcoming?  If 
so, when and how much will it be?
   Mr. Sell.  Each year, under the Nuclear Waste Policy 
Act, the Secretary of Energy must make a determination 
as to whether the mil fee is appropriate.  The Secretary 
reviewed material this year and he made the determination 
that the fee as it is presently being collected is in 
fact appropriate and sufficient, but we will continue to 
make that determination, as we are required to do, 
annually in the coming years.
   Mr. Boucher.  And so you are not currently anticipating 
an increase?
   Mr. Sell.  To directly answer your question, we are not 
anticipating or proposing an increase.
   Mr. Boucher.  Okay.  Mr. Chairman, may I have your 
indulgence for one additional question?  Perhaps--
   Mr. Hall.  The chair will give you another minute.
   Mr. Boucher.  Thank you, Mr. Chairman.  I just want to 
get your sense of how you could go forward simultaneously 
with a vigorous Yucca Mountain Program and also be 
launching what is also a very large additional waste 
program, and that is the so-called GNEP.  Do you think 
you have the resources, both from a financial and a 
personnel standpoint, to do both together?
   Mr. Sell.  We are confident in that as we proceed on 
these two initiatives, that we will either have or we 
will go get the management personnel and technical resources 
to effectively manage these two programs, and we are also 
seeking from the Congress the financial resources to pursue 
these two programs.  I think, to put it in the right context, 
we believe that the world and this country needs a dramatic 
expansion of nuclear power, and that means something from a 
waste management standpoint.  And if we only keep nuclear 
electricity generation at 20 percent for the balance of the 
century, we will have to build the equivalent of nine Yucca 
Mountains, if we stay with the current disposal strategy.  
So it is our view that we should begin now to work in 
partnership with other advanced fuel cycle States to 
develop the technologies that would allow us to optimize, 
over the decades to come, the use of Yucca Mountain.  We 
have to have it now, because we want to hopefully just 
build one.
   Mr. Boucher.  Well, I understand the purpose, Mr. Sell, 
and I will say to you that I am a little bit skeptical that 
you are going to be in a position to go forward 
simultaneously with a vigorous Yucca Program and this one 
at the same time.  That is a debate we will have another 
day, I am sure, but I wanted to get your sense about 
whether you thought you actually could do both together, 
given the resource limitations that I know you face.  
Mr. Chairman, thank you for your indulgence and thank you, 
Mr. Sell.
   Mr. Sell.  Thank you.
   Mr. Hall.  The chair recognizes the gentleman from 
Illinois, Mr. Shimkus.
   Mr. Shimkus.  Thank you, Mr. Chairman, and I want 
to thank my colleague, Dr. Burgess, for allowing me to 
jump ahead of him, also.  I think I am going to owe him 
in the future, but it is great to be here.  I think the 
Yucca Mountain debate as far as--is that a suitable 
location is sound public policy, which we voted on the 
floor.  My question is how expeditiously can we move, 
and a lot of our frustration here is that, you know, we 
want to move.  We want to open this thing and we need to 
get this nuclear waste out from the numerous locations 
we have it around the country.  And the other is, if we 
don't expand nuclear power in this country, we are going 
to expand coal generating facilities.  Now that is okay 
by me.  I am from coal regions in Illinois, but I think 
my environmental friends would have a beef with that.  
So this is a valid issue and you are going to have 
members who are very strongly in support of Yucca 
Mountain, very supportive, but we have got to move.  
We have to go to see some progress, and that is our 
frustration.
   A couple questions.  Secretary Bodman stated just 
last week here before us that the Administration would 
propose legislation to address Yucca Mountain within a 
month.  If Congress does not act on your legislative 
proposal this year, what specific activities would be 
impacted?
   Mr. Sell.  Well, certainly, from a funding certainty 
standpoint, over the last several years the Administration 
has consistently received a funding level below what we 
have requested.  And so each year that passes where that 
is the case, the program is affected.  Other than that 
issue, I don't know that there would be a direct affect 
in this year if the Congress failed to enact legislation, 
but we certainly want to be in a position to make progress 
on this program as quickly as possible.  We know that 
legislation is required to do that and we would look 
forward to working with the Congress to get that passed 
as quickly as possible.
   Mr. Shimkus.  So you would say that the schedule for 
the commencement of the repository operations could be 
affected if we don't move on legislation?
   Mr. Sell.  Absolutely.
   Mr. Shimkus.  The Nuclear Waste Policy Act requires 
the submission of a project decision schedule to be 
updated as appropriate.  In light of the many changes to 
the program in the last few years, when does DOE plan to 
submit a revised project decision schedule?
   Mr. Sell.  We intend to brief the committee on a 
revised schedule in June or July of this year.
   Mr. Shimkus.  Last week, Secretary Bodman also said 
that DOE has begun its evaluation of the need for a 
second repository, an evaluation that DOE is required 
to present to Congress beginning in 2007.  If the 
Department has to begin looking at a second repository, 
which sites would you consider?
   Mr. Sell.  I can't answer that in any way other 
than to expect that the Department would start with 
the numerous sites in the 22 States that we had 
previously reviewed, many of those on the east coast 
and throughout the mountain west.
   Mr. Shimkus.  And if and when you all decide to 
move in that direction, I am assuming you will provide 
the committee with a list of the possible sites?
   Mr. Sell.  I am sure we will do that.
   Mr. Shimkus.  It might provide some more support 
for Yucca Mountain once we start evaluating other 
locations around the country.  Just a wild guess on 
my part.  To what extent would a required report on 
the need for a second repository be shaped by the 
progress on GNEP?
   Mr. Sell.  Well, it would be shaped by whether the 
Nuclear Waste--you know, it has been 19 years since 
the Nuclear Waste Policy Act was amended in any way, 
and we are going to seek amendments in this legislative 
proposal which could affect the decision to seek the 
second repository.  And if that is the case, then that 
may affect the schedule.  Otherwise we will proceed 
with that analysis for a report in the 2007 to 2010 
time frame.
   Mr. Shimkus.  I mean, this is a really important 
debate because if we don't revise the legislative 
schedule, the stored spent fuel, if we do allow 
reprocessing of that cask, how much would we through 
the reprocessing diminish?  So you know, you take a 
cask, you have got the current level, and now we 
reprocess.  How much is left?  What percentage?
   Mr. Sell.  Well, the key thing--do you mean how 
much would recycling--
   Mr. Shimkus.  Right.  It is a historic debate 
because, obviously, we reprocess and we are going 
to have--the debate will be more storage available.
   Mr. Sell.  The thing that drives the capacity 
of a geologic repository is the heat load and the 
radiotoxicity.  And through recycling, and that is 
a combination of separating material and then 
burning it down in fast spectrum reactors, we can 
reduce the heat load and radiotoxicity by two 
orders of magnitude.  So it is our judgment that 
if we can successfully demonstrate and then deploy 
recycling technologies, we would have sufficient 
capacity within the physical constraints of Yucca 
Mountain for the disposal of all nuclear waste for 
the balance of this century.
   Mr. Shimkus.  How much more are we likely to 
know in the prospects for success in this technology 
development by the time the report is issued?
   Mr. Sell.  It is the hope of this Administration, 
the expectation, to do a significant amount of work 
to understand better the technologies so that we can 
make a judgment before the end of this term as to 
whether we should proceed forward to continue to 
demonstrate these technologies.  The technologies we 
know we can do.  The UREX-plus separations process 
we have demonstrated in the laboratory.  Fast 
reactors, we have built many, or several, in this 
country, and many have been built around the world.  
The key challenge is qualifying fuel for burn-down 
in a fast reactor.  That is the key R and D 
challenge and we need to determine whether we can 
do that on an economic cost scale that would prove 
to be commercially attractive.  That is a 
significant challenge, but it is one we are going 
to proceed expeditiously with, with the help and 
support of this Congress, so that we can make a 
determination, a better determination as to how 
to proceed by the end of 2008.
   Mr. Shimkus.  Thank you.  And my last question 
is, can you briefly talk about the reclassification 
of fees and the offsetting collections for the 
repository program and how this could help 
accelerate the opening of the repository?
   Mr. Sell.  The reclassification of fees would 
allow us to take the roughly $750 million which 
today goes into the Nuclear Waste Fund and has to 
be appropriated out, it would allow that $750 
million to go directly to the project.  And so 
that amount, coupled with the contribution from 
the Defense Nuclear Waste Fund, would provide much 
greater funding certainty to the program in the 
critical next few years.
   Mr. Shimkus.  Thank you, Mr. Chairman. I yield 
back.
   Mr. Hall.  Thank you.  The chair recognizes 
the gentleman from Michigan, Mr. Dingell.
   Mr. Dingell.  Mr. Chairman, I thank you for 
your courtesy.  Mr. Sell, last week Secretary 
Bodman testified that the Administration plans to 
send up a bill to the Congress proposing changes 
in the Nuclear Waste Policy Act of 1982.  When 
will that be done?
   Mr. Sell.  As Secretary Bodman said last week, 
we hope to have the legislation up within a month.
   Mr. Dingell.  Hope?  Hope?
   Mr. Sell.  Well, Mr. Dingell, I will go beyond 
hope, I will even say I expect to have it up 
within--
   Mr. Dingell.  By what date?
   Mr. Sell.  If it was completely within my control, 
Mr. Dingell, I would be confident giving you an exact 
date, but because we are working through the 
interagency process, I can only tell you what my 
expectation is.
   Mr. Dingell.  Approximately, what are your 
expectations, please?
   Mr. Sell.  My expectation is, we can have the 
legislation up within a month.
   Mr. Dingell.  Okay.  Now, does the Administration 
want the Congress to pass legislation on Yucca 
Mountain this year?
   Mr. Sell.  Yes, we do.
   Mr. Dingell.  All right.  Is that legislation 
before the Congress in proper legislative and 
finished form?
   Mr. Sell.  It is not before the Congress today.
   Mr. Dingell.  When will that happen?
   Mr. Sell.  Well, we will submit it to the 
Congress and then we would hope to work with the 
Congress in finding an appropriate co-sponsor.
   Mr. Dingell.  Is there a date that you can give 
me on this?
   Mr. Sell.  Mr. Dingell, unfortunately, I cannot 
give you a better date than what I have previously 
said.
   Mr. Dingell.  Now, I find myself confronting a 
curious conundrum here.  Does the Administration 
expect the Congress to consider legislation before 
DOE provides the information coming out of the 
internal program review, or are we going to wait 
until we complete the program review?  It appears 
to be sensible to have all the facts before we 
proceed to legislate.  What is the answer to 
that question?
   Mr. Sell.  I believe that we think and we would 
propose to work those issues in parallel with the 
Congress; that we would submit legislation for your 
consideration at the same time--
   Mr. Dingell.  Does it occur to you that we 
ought to have the program review completed before 
the legislation is considered by the Congress so 
we can know what we are doing?
   Mr. Sell.  I think it is helpful, but I do not 
think it is necessary that the complete 
information--
   Mr. Dingell.  Well, that leaves us in a 
position where we may legislate one way and your 
internal review will either tell us we should have 
done it differently or will require careful cooking 
of the review.  I find neither of these appetizing 
prospects.
   Mr. Sell.  It is our desire to put our proposal 
and as much information that would allow the 
Congress to comprehensively consider that proposal.  
We would like to put as much information as possible 
before the Congress and work with the Congress to 
amend the Nuclear Waste Policy Act.
   Mr. Dingell.  It is a good lawyer's answer.  Now, 
will the legislation be sent up here before the 
estimates have been filed with NRC by DOE, or will 
that indicate when you expect to be able to open 
Yucca Mountain?
   Mr. Sell.  We expect to have the legislation up 
within a month.  We do not expect to have revised 
program plan finalized and before the Congress until 
June and July, and we hope those are the next two 
dates coming and we hope to work with you to get the 
legislation passed as quickly thereafter as possible.
   Mr. Dingell.  I find myself afflicted with a 
concern that we will thereupon be compelled to 
function with an information void against a target 
which is perhaps moving and possibly even moving the 
wrong direction.  What do you say about that?
   Mr. Sell.  Mr. Dingell, the frustration that I 
know this committee feels is one that I enjoin and 
it is one that the Secretary feels strongly.  We feel 
frustrated.  We are frustrated by the performance of 
this Department.
   Mr. Dingell.  I want you to understand, first of 
all, I have limited time, but second of all, I want 
you to understand that I share your frustration and 
these remarks are not necessarily critical, but they 
are necessary to understand what is going on.  Now 
having said that, Mr. Paul Golan testifying before 
the Congress today on Yucca Mountain refers to a 
clean canistered approach to spent fuel operations.  
He says that work on the pending license application 
for Yucca Mountain will include the following 
approach: a single canister would be used to 
transport, age, and dispose of waste without ever 
needing to reopen the spent fuel package again.
   Now, I find that this, together with the 
Administration's package with regard to the Global 
Nuclear Energy Partnership, GNEP, this is going to 
be, according to what the Administration says, this 
is going to have the potential to reduce the amount of 
high-level waste that is stored in a nuclear bomb.  
Your testimony at page seven alludes to this concept.  
Now, Mr. Sell, there seems to be some incongruence 
between these two statements.  On the one hand, we 
have you and Mr. Golan pushing for a design that 
minimizes contact with high-level waste and saying 
that the spent fuel canister need never been reopened.  
On the other hand, with the GNEP, we have the DOE and 
you suggesting that reprocessing under GNEP will 
indicate a loss of waste going into Yucca Mountain.
How do we rhyme those two statements?
   Mr. Sell.  A significant amount of the spent fuel 
that this country has generated over the last 50 years 
will not be a candidate for recycling under any 
scenario.
   Mr. Dingell.  So you are going to just recycle 
new waste, is that it?
   Mr. Sell.  Well, once waste has been about 15 years 
old, it presents a more challenging prospect to 
recycle that than newer waste.
   Mr. Dingell.  Understand, this is not criticism.  
I am just asking information.  Now, quickly, can you 
tell us where you and when you, under GNEP, at the DOE 
will have the waste reprocessed?  Will it be done at 
the utility sites, at Yucca Mountain, or at some 
other place?
   Mr. Sell.  Well, if we can prove out the 
technologies, and we need to, that is a significant 
engineering challenge.  If we can demonstrate those 
technologies, and then if it makes sense for us to 
commercialize those technologies, an appropriate 
process would occur to determine the appropriate 
site for those recycling facilities.
   Mr. Dingell.  So this is not at this time known?
   Mr. Sell.  It is not known.
   Mr. Dingell.  All right.  Mr. Chairman, you 
have been most gracious.  Thank you and thank you, 
Mr. Sell.
   Mr. Hall.  The Chair recognizes Dr. Burgess, the 
gentleman from Texas.
   Mr. Burgess.  Thank you, Mr. Chairman.  And, 
Mr. Deputy Secretary, thank you and I appreciate 
your indulgence.  I know it has been a long 
afternoon.  But continuing on the line that the 
gentleman from Michigan was just pursuing, with the 
transportation, aging and disposal canisters, that 
is a new approach?
   Mr. Sell.  It is an old idea but a new approach.
   Mr. Burgess.  And has this redirection using those 
transportation, aging, and disposal canisters, has 
that had an effect on the timing of the cost of the 
license, the review of ground construction, and 
operations?
   Mr. Sell.  That has an impact on it as well as 
the activity related to the radiation standard, the 
funding issues, and quite frankly, the other issues 
that have come up as it relates to the quality 
assurance of the work in the program over the last 
year.  All of those matters, coupled with the review 
of the program that the Secretary directed, have 
affected and will affect our schedule for the 
license application.
   Mr. Burgess.  And how will it affect it?  Will 
it delay it?
   Mr. Sell.  You know, previously, just a few years 
ago, the Department had indicated that a license 
application would be made in December of 2004.  That 
did not occur.  And we are working to make a license 
application to the NRC that will be successful as 
quickly as possible.  If one only wanted to make a 
license application, we could do that very quickly, 
but we want to make sure that when we make it, we 
have a high degree of confidence that we will in 
fact be successful.
   Mr. Burgess.  Yes.  I would point out, we are 
going the long way to December of 2004 at this point.  
Last year, in preparation for the certification, the 
licensing support network, several e-mails from the 
United States Geological Survey employees indicated 
that proper quality assurance procedures had not 
been followed for their research on water filtration 
into the repository.  Currently, is there action 
being taken to verify or recreate this data and 
the models that they worked on?
   Mr. Sell.  There is.  We intend to recreate the 
work.  That is one of the things that we have asked 
Sandia National Lab to do.  I would note that in 
our substantial review of the work, we did not find 
any of the substantive conclusions incorrect.  In 
fact, they are consistent with many other studies 
as it relates to water infiltration.  We did 
identify problems with the quality assurance methods 
that were used.  And because we want to ensure that 
we proceed in the most responsible way possible, we 
are going to redo those models and resubmit those as 
part of our license application.
   Mr. Burgess.  Now, if I understand the concept 
correctly, the recycling program and Yucca Mountain 
are proceeding along parallel tracks, but they are 
interdependent in that you already have spent nuclear 
fuel that will basically take up the space that is 
available at Yucca Mountain, and without the 
reprocessing program, another Yucca Mountain would 
be necessary fairly quickly, is that correct?
   Mr. Sell.  The Nuclear Waste Policy Act put a 
70,000 metric ton limit on Yucca Mountain, and it 
is our projection that by roughly 2010 or 2012, the 
Yucca Mountain, as specified under the act, will be 
fully subscribed.  That is one of the issues that 
we may seek to address in the legislation.  And we 
also believe that if we can, over the coming 
decades, commercialize the recycling technologies, 
that would allow us to greatly optimize the use of 
that one Yucca Mountain so that it would serve and 
perhaps permanently defer a decision on a second 
repository.
   Mr. Burgess.  Is, now, a country like France 
that utilizes a good deal more nuclear power than 
the United States, do they reprocess their spent 
fuel?
   Mr. Sell.  France reprocesses as well as the 
United Kingdom, Japan, Russia, China, most of the 
other great nuclear economies all have commercial 
reprocessing activities.
   Mr. Burgess.  Is that technology developed in 
France or was it developed in this country?
   Mr. Sell.  All of the reprocessing technology 
that is used around the globe today is based on 
the PUREX method which was developed here in the 
United States as part of our weapons program to 
produce and separate plutonium.
   Mr. Burgess.  Is there an economy to be found 
by going for off-the-shelf technology that is 
already utilized in other countries that is working, 
or is there a downside to pursuing that?
   Mr. Sell.  In our judgment, Mr. Burgess, the 
commercial reprocessing technologies that are used 
around the globe today are not preferable because 
they separate pure civilian plutonium, which 
represents a significant proliferation risk.  And 
so what the President has proposed is that we work 
to develop the next generation of recycling 
technologies that will be much more proliferation 
resistant than the types of reprocessing 
technologies that are used around the globe 
today.  And that is one of the reasons we want to 
work in partnership with the other nuclear 
economies, to benefit from the advances that they 
have made, but also to work with them in phasing 
out the existing PUREX-based reprocessing 
technologies which, in our judgment, present a 
significant proliferation threat.
  Mr. Burgess.  Is the discussion with India, 
would that be for the proliferation resistant 
reprocessing?
   Mr. Sell.  The announcement that was made 
with India, they have made a commitment.  They 
never signed the Nonproliferation Treaty.  They 
have made a commitment to put a great number of 
their nuclear facilities under safeguards, which 
is a considerable improvement.  And in return, we 
have made a commitment to change the Atomic 
Energy Act so that we can engage in nuclear 
cooperation, including fuel cells with India and 
to strengthen the strategic relationship and 
quite frankly, the economic relationship between 
our two countries.  As it exists today, the 
agreement between the United States and India does 
not relate specifically to recycling or 
reprocessing.
   Mr. Burgess.  Mr. Chairman, you have been very 
indulgence.  I will yield back my time.
   Mr. Hall.  I thank the gentleman.  The Chair 
recognizes the Chairman of the Energy and Commerce 
Committee, Joe Barton, for as much time as he wants 
to consume.
   Chairman Barton.  Well, I will take five minutes, 
Mr. Chairman.  Thank you.  Thank you, Mr. Deputy 
Secretary, for being here.  First, I want to make 
sure that my opening statement is put in the 
record.
   Mr. Hall.  Without objection, sir.
   [The prepared statement of Hon. Joe Barton 
follows:]

Prepared Statement of the Hon. Joe Barton, 
Chairman, Committee on Energy and Commerce

   Thank you Mr. Hall and Mr. Boucher for having 
this hearing on the status of Yucca Mountain.  As 
you know, I feel very strongly about this issue 
and remain committed to carrying out our nation's 
nuclear waste policy and building a repository at 
Yucca Mountain. 
   Our nation has invested 23 years and $9.0 
billion into a repository to solve our nuclear 
waste problem.  The amazing part is, as time 
passes, this project gets further and further 
behind.  Yucca Mountain was supposed to open in 
1998, isn't open yet, and won't open by 2010.  
With DOE amassing more liability costs with each 
passing year, it's time we get an explanation as 
to where DOE's priorities are.
   The license application is four years overdue 
and DOE has no projection of when it will be 
submitted.  DOE also has no projection of when 
the repository will open.  DOE has been working 
since last August on a legislative proposal to 
resolve the repository's outstanding issues, but 
hasn't produced it yet.  In the meantime, DOE has 
been focused on developing their GNEP proposal 
that represents a fundamental shift in nuclear 
waste policy, without any warning to Congress.  
   In 2007, payments into the Nuclear Waste Fund 
will be approximately $750 million.  The Nuclear 
Waste Fund will earn over a billion dollars in 
interest, and the balance in the Fund will be 
nearly $20 billion.  Yet in the Administration's 
budget for FY'07, only $156 million will be used 
for the repository program.  However, that same 
budget also proposes $250 million for the new 
GNEP proposal with funding requests expected to 
top $700 million for FY'08 and �09.  Let me be 
clear - I oppose tapping the Nuclear Waste Fund 
for GNEP activities.
   I encourage DOE and the administration to 
keep a strong focus on Yucca Mountain.  If 
Congress needs to take further action to get the 
Yucca Mountain project set once and for all, I 
and many bipartisan Members of this Committee are 
ready to work with you.  Personally, I'm willing 
to tolerate this pursuit of the GNEP dream, but 
not at the expense of a nuclear waste repository.  
CEOs and boards are watching, waiting for a 
signal that the executive and legislative branches 
will do their part.  Until we send that signal, we 
may not see any new plants built.  I know you 
share that goal, so let's give confidence that the 
waste issue is solved.

   Chairman Barton.  Okay.  Mr. Deputy Secretary, 
I think you know that the last several years the 
government has paid about $140 million or $141 
million dollars in settlement claims because of the 
Department of Energy's inability to dispose of the 
existing commercial spent fuel.  Do you have an 
idea or an estimate of what will be paid over the 
next five years for these claims?
   Mr. Sell.  As far as damages claims as a result 
of not taking the waste, I do not have an exact 
estimate, but I would like to provide the best 
information I have for the record.
   Chairman Barton.  Well, we would like to have 
that estimate and we would also like to have the 
Department's proposal on how to reimburse the 
Judgment Fund, and we would also like to know 
where these costs are reflected in the 
President's Budget.
   Mr. Sell.  Mr. Chairman, under the existing 
law or operations of the Judgment Fund, payments 
out of the Judgment Fund are not reimbursed by 
the Department of Energy.  The Judgment Fund is 
handled separately from our budget and I believe 
that is the way it will continue to be handled.
   Chairman Barton.  Who is responsible for the 
Judgment Fund if not the Department?  Where is 
the money coming from?
   Mr. Sell.  Ultimately, the money comes from 
the taxpayers.
   Chairman Barton.  No, I mean, but what agency?
   Mr. Sell.  I believe, Mr. Chairman, the Judgment 
Fund is administered by the Department of Justice.
   Chairman Barton.  So there is no Department of 
Energy role in requesting funds for that fund?
   Mr. Sell.  That is correct.
   Chairman Barton.  Okay.  I am going to be 
sending, in the very near future, a written 
request to you and Secretary Bodman to prepare a 
life cycle estimate for comparing our existing 
waste policy based on Yucca Mountain and this new 
GNEP reprocessing approach.  I am skeptical of 
GNEP, but I at least think we ought to compare 
apples and apples when we look at the cost. Do you 
have a comment on that or do you just want to wait 
until you get my letter?
   Mr. Sell.  Well, I will look forward to your 
letter, but if I may, I would like to make a 
comment.  This is something that we looked 
seriously at and it affected our thinking as we 
were seeking to develop the policy and make a 
judgment as to whether this was something that 
was worth pursuing.  We think it is absolutely 
worth pursuing particularly for the potential 
nonproliferation benefits that it can yield.  
But even on a cost basis, we found that if the 
cost of uranium fuel is fully loaded with the 
ultimate cost of disposal, we think, you know, 
uranium fuel costs less than $100 per kilogram, 
but we think the disposal cost is at least $600 
per kilogram, and we expect the commodity cost 
of uranium to increase substantially as the 
demand for it increases with an expansion of 
nuclear power.  So in a world with many more 
nuclear power plants than we have today, we 
think that the cost of our once through policy, 
with disposal costs loaded in, is no less than 
what the cost of a recycling program would be.  
We think they are very comparable from a cost 
standpoint and we look forward to elaborating 
on that in our response to your letter.
   Chairman Barton.  Okay.  Somebody may have 
asked this, but when do you expect to present 
to this committee and to the Congress a 
legislative proposal on Yucca Mountain, on 
funding and maintaining that program?
   Mr. Sell.  As Secretary Bodman indicated 
last week, we hope to have that legislation to 
the Congress within a month.
   Chairman Barton.  Within a month, okay.  
Well, we always are glad to see you and we look 
forward to working with you on a lot of these 
issues.  And with that, I am going to yield 
back, Mr. Chairman.  Thank you for holding 
this hearing.
   Mr. Hall.  I thank Chairman Barton for 
yielding back.  And one of the benefits of 
being Chairman is that all the questions that 
I want to ask have been answered pretty well.  
But the purpose, of course, of the hearing is 
to gain an understanding of the current 
situation and connections to the GNEP proposal, 
reasons for further delays, and issues that 
might require legislation, and I think you have 
covered those pretty well.  You have adequately 
told us of the importance of Yucca Mountain, 
and I think everybody realizes that pretty well.  
The benefits of GNEP for the Yucca Mountain 
Project is something we might want to discuss 
for just a moment or so.  And if GNEP is 
successful, will there be a need for Yucca 
Mountain?  I think that almost speaks for itself 
because, physically, Yucca Mountain's capacity 
is limited by heat generation from nuclear waste.  
If their capacity is limited by that, then spent 
fuel can be reprocessed to reduce waste volume 
and remove the heat-generating elements, then 
Yucca Mountain's capacity might increase 
significantly, I am told, and I think that is 
basically in your testimony.
   Another question I have heard asked is, it 
is not my question, but I have heard it, is 
GNEP is evidence that the Administration is 
backing away from its commitment to Yucca 
Mountain, and it seems to me that it is certainly 
not backing away from it, that it is lending R&D 
to it to make it more adequate and maybe to 
prevent having additional Yucca Mountains.  Do 
you want to enlarge on that in any way?  In 
other words, it is not a slow clear give to 
those that oppose Yucca Mountain.  We don't 
want to ever go down that road.  We have got 
to finish it, we have got to complete it, and 
if you have any remarks to make about what 
GNEP will do for Yucca Mountain, I would like 
to hear that and that will be the only question 
I have.
   Mr. Sell.  You have said it and I will briefly 
elaborate on it.  We regard, really, GNEP as an 
opportunity to develop the recycling technologies 
that will allow us to optimize, from a waste 
management standpoint, it will allow us to 
optimize the use of the Yucca Mountain geologic 
repository for decades to come and perhaps even 
beyond the century.  But those technologies 
themselves will take decades to get to 
commercialization, and we need to have success 
on Yucca Mountain much, much quicker than that 
so that we can start moving fuel there and 
quite frankly, earn the confidence from the 
American people, the taxpayers, and the nuclear 
industry, that we can meet our obligations to 
take fuel under the Nuclear Waste Policy Act.  
So Yucca Mountain remains the top and quite 
frankly, kind of the greatest remaining 
uncertainty as it relates to nuclear power in 
the United States, and we intend to work over 
the course of the next three years to resolve 
that uncertainty.
   Mr. Hall.  Thank you for your testimony and 
thank you for your time and thank you for your 
service.  All right, with that, we are 
adjourned.
   [Whereupon, at 4:33 p.m., the subcommittee 
was adjourned.]

Response for the Record by the Hon. Clay Sell, 
Deputy Secretary, U.S. Department of Energy

QUESTIONS FROM CHAIRMAN HALL

Legislative Proposal

Q1.	Secretary Bodman stated on March 9th that 
the Administration would propose legislation to 
address Yucca Mountain "within a month."  According 
to press reports, Secretary Bodman made a statement 
on March 28th that he is "...hopeful we will get it 
out by the end of April..." When will the 
Administration propose legislation to the Congress?

A1.	The Administration's legislative proposal, 
the "Nuclear Fuel Management and Disposal Act" was 
submitted to Congress on April 5, 2006.


Q2.	If Congress does not act on your legislative 
proposal this year, what specific activities would 
be impacted?  How would the schedule for commencement 
of repository operations be affected?

A2.	The program activities identified in the 
President's FY 2007 budget are not contingent on the 
passage of legislation.  The opening of the 
repository will be dependent on a number of factors, 
including when the license application is submitted, 
how long it takes to receive construction 
authorization and a license amendment to receive and 
possess waste on site, the level of funding available, 
and other factors including many that are outside the 
control of the Department.  The legislative proposal 
contains a number of provisions, to facilitate the 
licensing, construction and operation of a repository 
at Yucca Mountain.  In particular, land withdrawal 
is a regulatory prerequisite for issuance of a license.


Q3.	Legislation has been proposed that would give 
DOE the authority to take title to commercial spent 
fuel at utility sites and store it there indefinitely.  
What is the Administration's position?

A3.	I understand that Senators Reid and Ensign 
have proposed legislation to authorize DOE to take 
title to spent nuclear fuel at utility sites as a 
way to reduce the Government's liability for its 
delay in disposing of spent nuclear fuel and 
resulting money damages in that litigation.  However, 
because the Government would accept liability and 
responsibility for commercial reactor waste on 
privately owned sites regulated by the Nuclear 
Regulatory Commission (NRC), taking title to all 
spent fuel at all 72 reactor sites in the Nation 
within five years would be substantially more 
costly to the Government than paying out delay 
damages.  For example, removing all five-year 
cooled fuel from spent fuel pools could cost as 
much as $6 billion over the next five years, would 
expose nuclear plant workers to needless radiation 
exposure and would provide no increase in safety.  
Moreover, the proposed legislation would further 
postpone the day when the Department begins to 
fulfill its responsibilities to take and dispose of 
commercial spent fuel currently located at reactor 
sites around the country.

Q4.	What issues are being considered in the 
Administration's Yucca Mountain legislative 
proposal?  
A.	Will it have provisions related to the 
GNEP program?  
B.	Why would legislation be necessary to 
address these issues?

A4.	The Department's legislative proposal, 
the "Nuclear Fuel Management and Disposal Act" 
was submitted to Congress on April 5, 2006.  It 
does not contain provisions related to the 
Global Nuclear Energy Partnership (GNEP) initiative.


Capacity of Yucca Mountain 

Q5.	Yucca Mountain's current capacity is 
limited by law to 70,000 metric tons.  
A.	Based on technical factors, what is the 
physical capacity of Yucca to accommodate spent 
fuel?
B.	Is this physical capacity adequate to 
directly dispose of all the spent fuel from the 
existing fleet of nuclear plants?
C.	Is this physical capacity adequate to 
directly dispose of spent fuel from any new 
nuclear plants that might be built?

A5.	The environmental impact statement (EIS) 
for the Yucca Mountain repository evaluated the 
cumulative effects of disposing of approximately 
120,000 metric tons of spent nuclear fuel and high-
level waste at Yucca Mountain site.  The physical 
capacity of Yucca Mountain has not been fully 
assessed; however the Department believes the 
capacity may be significantly greater than the 
amount analyzed in the EIS.  As such, the physical 
capacity of Yucca Mountain is adequate to dispose 
of all the waste that currently exists, and would 
be sufficient for the disposal of all the spent 
nuclear fuel and high-level waste that is expected 
to be generated in the future from the existing 
fleet of nuclear plants.  The ability of Yucca 
Mountain to dispose of spent fuel from new plants 
will be dependent on the number of new nuclear 
plants developed in the future and the results of 
further site characterization activities in other 
potential emplacement areas within Yucca Mountain.


Q6.	To what extent will the required report on 
the need for a second repository be shaped by 
progress on GNEP?  How much more are we likely to 
know on the prospects for success in this technology 
development by the time the report is issued?

A6.	As required by the Nuclear Waste Policy Act, 
the Department of Energy is to submit a report on 
the need for a second repository between January 
2007, and January 2010.  The Department is currently 
in the planning phase for the development of that 
report.  The report will address the technical 
progress of GNEP technology development at the time 
of its issuance.  Given the timetable for determining 
the feasibility of the GNEP technologies, it is 
unlikely that the report could assume the commercial 
deployment of those technologies in the near term.  
On the other hand, removal of the 70,000 metric ton 
limitation would have a major effect on the need for 
a second repository in the near term.


Q7.	Please list the amounts and types of defense 
waste and spent fuel planned for disposal in Yucca 
Mountain.  Please list all other defense waste and 
spent fuel that requires disposal in a geologic 
repository that exceeds the current allocation for 
Yucca Mountain. 

A7.	The repository is being designed to 
accommodate 7,000 metric tons of spent nuclear fuel 
produced from the Department of Energy weapons 
production and Department of Navy research and test 
reactors, and naval nuclear propulsion programs and 
vitrified defense high-level waste from the 
reprocessing of spent fuel.  

The Department's total inventory is approximately 
13,000 metric tons heavy metal, comprised of around 
2,500 metric tons heavy metal of spent nuclear fuel, 
including 65 metric tons of naval spent fuel and  
approximately 10,500 metric tons of DOE high-level 
waste.

The Department's ability to dispose of its high-level 
radioactive waste currently is constrained by the 
provisions in the Nuclear Waste Policy Act that 
imposes a 70,000 metric ton limit and requires the 
tonnage of the high-level radioactive waste to be 
based not on the actual volume of waste but rather 
on the volume of the spent fuel from which it was 
generated.


License Application

Q8.	What impact will the GNEP program have on 
the content and filing date of Yucca Mountain 
license application?		

A8.	The GNEP initiative is a separate activity 
within the Department and is not expected to have 
any impact on the initial Yucca Mountain license 
application.  If the advanced technologies that are 
being consider under the GNEP program are proven 
feasible and deployed, DOE will take appropriate 
action to revisit the license granted by NRC to 
accommodate the waste generated by GNEP.


Q9.	In the past year, a decision was made to 
redirect the approach taken to handling fuel at 
the repository to a "clean" approach utilizing a 
single canister for transportation, aging, and 
disposal (TAD).   Please explain this new approach.  
What impact has this redirection had on the timing 
and cost of license review, program construction, 
and operations?  How does it differ from the 
Department's previous failed attempt to use 
Multi-purpose Canisters?   

A9.	The new clean-canistered approach is 
cleaner, simpler, and safer.  Workers at the Yucca 
Mountain site will be handling primarily 
canistered waste, not individual fuel assemblies 
as previously planned.  These canisters will 
provide workers with another contamination 
barrier.  For example, when routine maintenance 
is required in the canistered operating 
facilities, workers will not have to deal with 
radiological contamination as they would with 
individual fuel assembly handling operations.

The Department anticipates that it will be able 
to announce a schedule for submission of the 
license application this summer after we have 
considered what changes will be needed in the 
license application to take the canistered 
approach into account.  This re-direction was 
not the cause of the delays.  Additional time 
for the development of the license application 
is needed to address a number of issues, 
including the expected issuance of the 
Environmental Protection Agency standards, 
actions to improve the quality assurance of the 
Program, and to ensure the license application 
is developed to the degree required for 
docketing by the NRC.  The cost of re-directing 
the program to the canister approach has been 
minimal as compared to the cost savings that 
can result in simplier operations over the 
40 years of operations at the repository.

The opening of the repository will be dependent 
on when the license application is submitted, 
how long it takes to receive construction 
authorization and then a license amendment to 
receive and possess, the level of funding 
available, and a number of other factors.

We believe the new approach represents a 
technically simpler and safer operation.  A 
similar initiative in the mid-1990s, referred 
to as the multi-purpose canisters (MPC) 
approach, was discontinued as a result of 
budget reductions.
Q10.	Last year, the NRC denied certification 
of the Licensing Support Network.  What steps 
are being taken to address this situation?  
When will the Network be ready for certification?

A10.	After NRC rejected the certification of 
the LSN in August 2004, the Department took 
several actions.  First, a large archive of 
emails from inactive and external users was 
reviewed, and relevant documents were added to 
the LSN collection.  Second, we reviewed 
documents that had been designated as 
privileged to ensure their proper classification 
and we removed a large number from the 
privileged category.  Third, we continued our 
processes to collect and identify relevant 
documents that are required to be produced in 
the LSN in anticipation of a new certification.

The LSN is currently being kept up to date 
through monthly submittals of relevant documents.  
The date for the LSN recertification has not 
been finalized, however, NRC regulations 
require the Department to certify the LSN at 
least six months prior to submittal of the 
license application.


Q11.	Last year, in preparation for 
certification of the Licensing Support Network, 
several emails from USGS employees indicating 
that proper Quality Assurance procedures had not 
been followed for their research on water 
infiltration into the repository.  What actions 
are being taken to verify or recreate the data 
and models that they worked on?  When will that 
work be completed?  What is being done to 
improve quality assurance procedures and ensure 
adherence to those procedures?

A11.	The U.S. Geological Survey emails, 
while not directly involving data collection 
and technical work, have caused the Department 
to review the work contained in two reports, 
Simulation of Net Infiltration for Present-Day 
and Potential Future Climates and Analysis of 
Infiltration Uncertainty, which currently support 
the Total System Performance Assessment for the 
license application.  

The Department has conducted an evaluation of the 
potential technical impacts resulting from 
questions raised by the emails.  The Evaluation of 
Technical Impact on the Yucca Mountain Project 
Technical Basis Resulting From Issues Raised by 
E-mails of Former Project Participants report 
concluded that, while the emails do not suggest a 
misrepresentation by certain individuals of the 
underlying science, they appear to imply 
circumvention and/or misrepresentation of 
compliance with Yucca Mountain Project quality 
assurance requirements.  Consequently, we have 
implemented remedial actions to address both 
potential technical and quality assurance issues 
associated with the supporting data, implementing 
software, and process models called into question.  

The Department has tasked Sandia National 
Laboratories to review the existing infiltration 
model and to prepare a new model.  After Sandia 
completes these tasks, its work will be independently 
checked by experts outside the Department.  We have 
been very clear that it is vital to properly carry 
out this work, and we will take the time necessary 
to do so.


Q12.	Please update the Committee on the efforts 
by the EPA and the NRC to issue an updated 
radiation standard for the repository.
     A.	Is DOE confident that Yucca Mountain can 
     meet the revised standard?
     B.	How will the ultimate resolution of the 
     radiation standard impact the licensing 
     process and the repository's design, cost, 
     and schedule?

A12.	The Environmental Protection Agency (EPA) 
proposed rule applies a sensible technical 
approach and is appropriately tempered by 
reasonable policy judgments such as the inclusion 
of a reasonable expectation test.  The proposed 
EPA standard beyond 10,000 years is equal to, or 
lower than radiation doses that are routinely 
experienced by millions of people today based on 
where they live or what they do.  If the revised 
standard proposed by EPA is codified as proposed 
the Department is confident that the Yucca 
Mountain repository can meet the proposed revised 
standard.  Of course, demonstrating regulatory 
compliance with a standard hundreds of thousands 
of years in the future will be a first of a kind 
exercise for both NRC and DOE and is likely to 
require the expenditure of considerable time and 
resources by both entities.

The Department expects to have a schedule for 
submission of the license application later this 
summer after we have had a chance to review and 
incorporate proposed design changes for the 
clean-canistered approach to fuel handling 
facilities.  This schedule will reflect the 
estimated time needed to address a number of 
issues, including for example, incorporating the 
final EPA standard.  While the revision of the 
EPA standard has had an impact on the schedule 
for submitting the license application, the 
Department does not expect that the revised 
standard will necessitate design changes or the 
incurrence of any significant additional costs 
other than those associated with dealing with 
contentions on the post 10,000 year period in 
the licensing proceeding.


Q13.	How is DOE preparing to address the 
rigors of the NRC license review process?  What 
licensing expertise does DOE currently have 
within the OCRWM?

A13.	As the Department continues to develop the 
repository design, safety analysis, and license 
application, it is also developing plans for 
defense of the application in Atomic Safety and 
Licensing Board hearings and Nuclear Regulatory 
Commission (NRC) reviews.  This planning includes 
identification of our expert witnesses and 
preparation of information that may be needed to 
respond to contentions raised by other parties to 
the licensing proceedings.  Prior to submitting 
the license application, the Department plans to 
have in place procedures and processes to respond 
to NRC's requests for additional information once 
the license application is submitted.  Since the 
NRC staff anticipates only an 18 month review 
period prior to the hearings, the Department needs 
to be able to respond to Requests for Additional 
Information rapidly and comprehensively.  A 
thorough legal and regulatory review process, 
combined with timely interactions with the NRC 
during the pre-application period, will help the 
Program develop a license application that the NRC 
can docket, review and adjudicate in the three 
year period required by the Nuclear Waste Policy 
Act. 

	The Department currently has staff, both 
	Federal employees and contractors with 
	experience in the licensing of nuclear 
	facilities before the NRC.  In addition, 
	DOE has retained the services of an 
	experienced law firm with extensive 
	experience in nuclear facilities licensing 
	and NRC regulation.


Management 

Q14.	The Nuclear Waste Policy Act requires the 
submission of Project Decision Schedule to be 
updated as appropriate.  In light of the many 
changes to the program in the last few years, when 
does DOE plan to submit a revised Project Decision 
Schedule? 

A14.	We are working on an update of the Project 
Decision Schedule and plan to complete it in FY 2007.


Q15.	Last week, Secretary Bodman said that DOE 
has begun its evaluation of the need for a second 
repository, an evaluation that DOE is required to 
present to Congress beginning in 2007.  If the 
Department has to begin looking at a second 
repository, which sites will you consider?  Please 
provide a list of those candidate sites for the 
record.

A15.	The Department will develop a report between 
2007 and 2010 on the need for a second repository, 
as required by the Nuclear Waste Policy Act.  
Potential identification of sites is premature until 
the report on the need for a second repository is 
submitted to the Congress and a decision is made 
whether to proceed with a second repository program. 
However, it is reasonable to assume that the 
Department would initially look at the 21 states 
considered for the first or second repository during 
the early 1980s.  These states include:  Connecticut, 
Georgia, Louisiana, Maine, Maryland, Massachusetts, 
Michigan, Minnesota, Mississippi, New Jersey, 
New York, North Carolina, Pennsylvania, Rhode Island, 
South Carolina, Texas, Utah, Vermont, Virginia, 
Washington and Wisconsin.


Q16.	When does the current contract for the 
repository program expire?  What are the Department's 
plans for re-competing that contract?

A16.		The base period for the contract with 
Bechtel SAIC expired April 1, 2006.  The contract 
includes options for up to five one-year extensions.  
The Department exercised the first one-year option 
(through March 31, 2007) and is considering exercising 
the second one-year option (April 1, 2007, through 
March 31, 2008) to ensure completion of critical 
in-process work related to the license application 
submittal.  The acquisition strategy for work beyond 
March 31, 2008, is being evaluated by the Department 
to determine the best path forward, including 
competition.


Q17.		In the last two years, the Federal 
Government paid $141 million in claims or settlements 
resulting from DOE's inability to dispose of 
commercial spent fuel.  How much do you estimate 
will be paid over the next five years?  Since these 
costs are being paid from the Judgment Fund, will DOE 
be required to reimburse that Fund?  Where are these 
costs reflected in the President's Budget?

A17.	The amount of damages due utilities from the 
Government is currently a matter in litigation.  
However, the Department has estimated that the 
Government's liability for delaying the acceptance of 
spent fuel from 1998 to 2010 is between $2 billion to 
$3 billion.  For each year that the Yucca Mountain is 
delayed beyond 2010, the Government's liability could 
be up to $500 million per year in costs that the 
commercial utilities will incur for the construction 
and maintenance of storage on their sites.  As the 
Department cannot predict when these costs will be 
paid either for a court judgment or for a settlement, 
the Department cannot quantify what portion of this 
liability will be paid over the next five years.  
Funds paid to utilities to settle litigation against 
the Government for the Department's delay came from 
the Government's Judgment Fund at the Department of 
the Treasury, which has a permanent indefinite 
appropriation and which, under current law, the 
Department of Energy is not required to reimburse.


Q18.	DOE has suggested that their liability for 
failing to accept commercial spent fuel beginning 
in 1998 may cost $500 million per year.  Private 
Fuel Storage was recently licensed to build an 
independent spent fuel storage facility in Utah 
and estimates that they could serve DOE's needs 
for about $60 million per year.  Is DOE exploring 
this possibility?  If not, why not?

A18.	The Nuclear Waste Policy Act (NWPA) directs 
the Department to develop a permanent geologic 
repository for spent nuclear fuel at Yucca Mountain.  
Because PFS is a privately funded facility operated 
by the private sector outside the scope of the NWPA, 
the statute prohibits DOE from providing direct 
funding to that entity.  Additionally, the facility 
does not address the Nation's need to permanently 
dispose of radioactive waste.  


Q19.	Under the Nuclear Waste Policy Act, new 
nuclear plants must sign standard contracts with 
DOE for the disposal of spent fuel before they 
can receive a license from the NRC.  Under what 
circumstances and conditions would DOE be able 
to sign Standard Contracts for the disposal of 
spent fuel from new reactors, considering the 
liability the Department faces for failure to 
execute their liability under the existing 
generation of contracts?

A19.	The Department is prepared to begin 
discussions with interested utilities to develop 
the terms and conditions of a new contract for 
the disposal of spent nuclear fuel from new 
commercial nuclear power reactors.  The Department 
is confident that it will be able to 
successfully complete these activities to support 
the licensing of new nuclear power plants.  The 
Department expects any new contract would take 
into account that acceptance of spent fuel would 
be dependent on removal of the 70,000 metric ton 
limitation or construction of a second repository.


Q20.	I understand that Secretary Bodman has 
publicly stated concern about whether the existing 
mil per kilowatt-hour that utilities pay to fund 
Yucca Mountain may NOT be adequate to cover the 
costs of building the repository.  What is the 
basis for that statement?  When will DOE planning 
to update its Total System Life Cycle Cost Estimate? 

A20.	While the project is still in the design 
phase and annual spending does not exceed the net 
income into the fund (fees plus interest), an 
increase to the mil levy on the production of 
electricity from nuclear power does not seem 
warranted or justified.  The Nuclear Waste Fund 
currently has approximately an $18 billion corpus 
which continues to grow every year.  In FY 2006, 
the Fund took in $736 million in the mil levy fee 
as well as $849 million in investment income (for 
a total of $1.585 billion) while only $148.5 
million was appropriated from the Fund by Congress 
for use at Yucca Mountain.  This means that there 
was over $1.4 billion generated for the Fund in 
FY 2005 but not spent.  

	The program is planning to develop new cost 
	estimates once the Department selects new 
	designs for surface facilities that 
	incorporate the clean-canistered approach 
	and that are approved by the Energy Systems 
	Acquisition Advisory Board.  Decisions on 
	the designs are expected this summer.
 	

Q21.	Administration witnesses have consistently 
testified that it is important to move forward with 
the Yucca Mountain project regardless of the 
outcome of the Global Nuclear Energy Partnership 
(GNEP).   One of the reasons relates to defense 
waste.
A.	Under current schedules, when will defense 
waste and spent fuel be ready for shipment to the 
repository?
B.		If the repository is not built, how 
will this waste be handled?

A21.       (A) 	Each Department of Energy site 
(Hanford, Savannah River, and Idaho National 
Laboratory), which expects to ship spent fuel or 
high-level waste to the repository, will place the 
waste into disposable canisters.  These canisters 
are designed to be transported to the repository 
and accommodate disposal in waste packages at 
Yucca Mountain.  Currently Savannah River has 
high-level waste that has been vitrified, but 
Hanford and Idaho have not yet vitrified their 
high-level waste.  Current plans developed by 
the Office of Environmental Management for each 
site are summarized in the table below.

SITE��� ���   ���� Date of Capability to�� ������ Date of Capability to 
������� ������� �� Ship HLW Canisters���     �����Ship SNF Canisters 
Savannah River� ����������� 2012������� ������� ������� ������� 2015 
Hanford Site��� ������      2020��� ������� ������� �������     2018 
Idaho National Lab����� ��  2022������� ������� ������� ������� 2015 

If a repository were not built, the waste would 
continue to be stored at the current sites.


Q22.	The Department has previously submitted a 
legislative proposal to reclassify the fees paid 
into the Nuclear Waste Fund to make those 
offsetting collections that could only be used 
for the repository program.  If Congress enacted 
such a reclassification proposal, how much 
would this accelerate the date for opening the 
repository?
A22.	The budget requirements to construct and 
operate the repository are estimated to be between 
$1 billion and $2 billion annually through 
operations.  The Yucca Mountain project is 
currently funded, on average, at the $500 million 
level, of which, on average, is approximately 
$200 million from the Nuclear Waste Fund.  Without 
funding reform to encourage full appropriation of 
the funds generated by the mil levy fee, the 
Department will not have sufficient funds to 
construct the repository and related infrastructure 
in a timely manner and operation of the repository 
at expected levels will be delayed many years.  


Q23.	$544 million was requested to fund the 
Yucca Mountain program for FY'07.  How much of 
that funding will be spent within the State of 
Nevada?

A23.	Approximately $343 million would be spent 
in the State of Nevada.  This would include funds 
for State and local government oversight activities, 
payments equal to taxes, University of Nevada 
research, our management and operating and other 
project contractors, and Federal salaries for staff 
located in Nevada.  
                       

Q24.	Please list all circumstances under which 
DOE has authority to conduct interim storage of 
nuclear waste and spent fuel.

A24.   	DOE has authority under the Atomic Energy 
Act of 1954, as amended, (AEA) (42 U.S.C. 2075), to 
accept spent nuclear fuel (SNF) in certain 
circumstances.  Pursuant to this AEA authority, the 
Department has accepted and stored U.S. supplied 
foreign research reactor fuel at various DOE sites.  
DOE has also used this authority to accept for 
research and development purposes small amounts of 
SNF such as parts of the Three Mile Island melted 
reactor core and other damaged SNF.  DOE also has 
accepted commercial SNF under contracts that 
pre-dated enactment of the Nuclear Waste Policy 
Act of 1982 (NWPA).  Enactment of the NWPA did 
not affect the Department's authority to accept 
and store SNF not covered by the Standard 
Contract mandated by the NWPA.  However, in 
enacting the NWPA, Congress did provide a detailed 
statutory scheme for commercial SNF storage and 
disposal that, by its specificity, severely limited 
the Department's commercial SNF storage and 
disposal options and, in effect, prevents the 
Department from currently undertaking interim 
storage of commercial SNF to meet the NWPA-imposed 
disposal contract obligations.  Section 135 of the 
Act authorized the Department to enter into 
contracts to assist or provide temporary storage 
of small amounts of SNF until a repository was 
available.  This authority expired in 1990.  
Section 141 of the Act authorizes the Department 
to site, construct and operate a Monitored 
Retrievable Storage (MRS) facility, but restricts 
DOE's ability to pursue this option by linking any 
activity under this section to almost unattainable 
milestones.  42 U.S.C. 10155-10157.  For example, 
before the MRS can be constructed, the Nuclear 
Regulatory Commission must have issued a 
construction authorization license for the main 
repository; until the main repository starts 
accepting SNF, the quantity of spent fuel stored 
at the MRS site cannot exceed 10,000 MTUs; after 
the main repository starts accepting SNF, the 
total quantity of SNF at the MRS site cannot exceed 
15,000 MTUs at any one time, and the MRS cannot be 
located in Nevada. 


Repository Operations

Q25.	The Yucca Mountain EIS includes an assumption 
that the repository will remain open with the 
ability to monitor waste performance and retrieve it 
if appropriate for at least 50 and as many as 300 
years.  What are your current assumptions with respect 
to this aspect of repository operations?

A25.	The Yucca Mountain environmental impact 
statement (EIS) assumption was based on two 
considerations.  First, Nuclear Regulatory Commission 
regulations require that the repository must be able 
to retrieve spent nuclear fuel and high-level waste 
for a period of 50 years following initial emplacement.  
Second, the Department desired to ensure that the 
repository could be physically maintained and monitored 
to allow future policymakers to decide when to 
permanently close the repository.  At the time the 
EIS was prepared, the Department believed that up to 
300 years was a conservative timeframe.

Considerations such as the costs and technical 
feasibility of maintaining the underground emplacement 
drifts for 300 years, and the need to protect the 
open repository from adversaries, have caused the 
Department to revise this assumption.  Currently, 
the Department intends that the repository be capable 
of remaining open for up to 50 years following 
completion of emplacement of spent nuclear fuel and 
high-level waste.  This will simplify the ability 
to provide drift stability, reduce the timeframe to 
protect the spent nuclear fuel and high-level waste 
while the repository is open, allow the repository 
to meet thermal limits for emplacement, and reduce 
the cost of maintaining the facility in an open 
condition.


Q26.	Please describe the improvements to site 
infrastructure that you plan to accomplish with the 
FY 2007 request.
A.		Why must this work be done now?
B.	Can all of these site infrastructure 
activities be undertaken in advance of receiving a 
license from the Nuclear Regulatory Commission to 
begin construction of the repository? 
C.		Do you have any communication from 
the NRC stating that position?

A26.	In order to assure the safety of the workers 
and visiting members of the public at the Yucca 
Mountain site, the Administration plans to make 
needed safety-related replacements or improvements 
to the existing infrastructure.  Among other things, 
the Department would be replacing or making 
improvements to the fire detection, alarm, rail, 
and ventilation systems, and underground fire 
fighting capability in the tunnel.  These 
safety-related activities would also involve the 
construction of three new temporary buildings to 
replace existing trailers, temporary work shops, 
and tents.  

These safety-related activities would also include 
removal of the muck pile (the tailings from the 
excavation of the tunnel) from its current 
location in order address safety the storm water 
flooding of the temporary buildings that have 
been constructed on the muck pile.  The muck pile 
would be used as fill material to support other 
infrastructure activities such as road construction 
or repair and pad foundation construction.  

The National Environmental Policy Act review for 
these proposed activities has not been completed, 
and we have not commenced our formal consultations 
with the Nuclear Regulatory Commission regarding 
these proposed activities.


Q27.	Please describe the improvements to 
transportation infrastructure that you plan to 
accomplish with the FY 2007 request.  Why must this 
work be done in 2007, considering that the 
repository is not likely to open before 2012?

A27.	Most of the assets required for safe and 
secure transportation have long procurement lead 
times.  The design, testing, certification and 
fabrication of new casks are expected to take five 
years.  In addition, construction of a 300 mile 
long rail access to the repository will be both 
expensive and time consuming.  The long lead times 
and high cost of developing the transportation 
infrastructure are prime reasons for beginning 
development early and spreading the costs over 
multiple years.   Approximately half of the 
$68 million requested for transportation 
development in FY 2007 is targeted for final 
design and construction of the rail line to 
the repository.  The other funds are targeted 
for procuring long lead assets (casks and rail 
cars) as well as developing the communications, 
security, routing and emergency preparedness 
support needed for safe and secure shipments.


Q28.	Are existing laws and regulations 
governing the transport of spent nuclear fuel 
and high-level waste adequate to ensure public 
health and safety during DOE's extensive 
shipping campaign to Yucca Mountain?  How many 
nuclear waste locations will not be accessible 
by rail in the timeframe that DOE expects to 
begin transport to Yucca Mountain?  What 
options exist for those sites NOT accessible 
by rail?

A28.	The Federal government and nuclear 
industry have been shipping nuclear material, 
nuclear waste, and spent nuclear fuel since 
the early 1950s.  In that time, over 3,000 
shipments of spent nuclear fuel have been 
conducted without any harmful release of 
radioactive material.  That safety record is 
largely due to the stringency of current 
laws and regulations.  In February of this 
year, the National Academy of Sciences issued 
a draft report titled, "Going the Distance?  
The Safe Transport of Spent Nuclear Fuel and 
High-Level Radioactive Waste in the United 
States" and stated that "Current international 
standards and U.S. regulations are adequate 
to ensure package containment effectiveness 
over a wide range of transport conditions."  
The legislation proposed by the Administration 
is not intended to replace this framework or 
to change the Department's long standing 
practice of working with States, Indian tribes 
and local governments utilizing their 
expertise to ensure safe and secure 
transportation and of providing them financial 
and other assistance, as appropriate.  Rather 
the legislation clarifies DOE can use its 
authority under the Atomic Energy Act to ensure 
a single comprehensive framework and identifies 
the mechanism for dealing with requirements that 
conflict with this framework. Of the 72 
commercial sites from which DOE will ship spent 
nuclear fuel, 24 do not have direct rail access.  
There are several options for shipping rail 
sized casks from these sites, including moving 
the large rail casks on special "heavy-haul" 
transporters to nearby rail yards and 
transferring them to a train for the rest of 
the journey, or shipping truck sized casks on 
flatbed trailers in standard legal weight, or 
permitted overweight, configurations.  Another 
option would be to load the rail cask onto a 
barge at sites with navigable water access and 
use the waterway to ship the load to a nearby 
railhead.  Studies of inter-modal shipment 
options from sites without rail access to a 
railhead are being supported by the Department 
in collaboration with state regional groups.  


Q29.	Is DOE confident that repository 
performance is understood in an adequate 
level of detail to satisfy the rigorous 
scrutiny of the Nuclear Regulatory Commission's 
review?  Is OCRWM undertaking any additional 
scientific work to increase understanding of 
natural or engineered barriers, or radionuclide 
transport?  If so, please describe this work, 
its current funding level and future 
projections.

A29.	Yes, DOE is confident that after over 
20 years of testing and analysis, the repository 
performance is understood to an adequate level 
of detail for the Nuclear Regulatory Commission 
(NRC) to make a determination that a 
construction authorization can be granted for a 
repository at Yucca Mountain.  When the 
President recommended Yucca Mountain for 
development as a repository in 2002, the NRC had 
issued its notice of sufficiency on November 13, 
2001, stating that there would be sufficient 
information available at the time of a potential 
license application such that development of an 
acceptable license application would be 
achievable.  The NRC had reviewed the responses 
DOE provided to questions on Key Technical Issues 
and concluded that the responses, and additional 
information that would be in the license 
application, would meet the requirements for the 
licensing process.  

Additional work is underway to increase our 
understanding of how the natural and engineered 
barriers perform, and how radionuclides might be 
transported.  Both DOE and NRC understand that 
additional confidence in our estimates of 
performance will be gained over time as we 
construct, operate and monitor the repository.  
NRC requires that DOE have in place a 
Performance Confirmation (PC) Program to 
continually evaluate the technical basis for 
our performance projections.  DOE has issued a 
Performance Confirmation plan and begun the 
process of migrating long term testing and 
monitoring activities that started during site 
characterization into the PC Program.  DOE 
will continue to collect and analyze scientific 
data related to performance of the engineered 
and natural barriers from now until closure of 
the repository.  

In FY 2006 funding for postclosure performance 
activities is approximately $79 million, this 
includes funding for Performance Confirmation, 
as well as funding to extend our current 
estimates of performance from the 10,000 years 
in the current NRC regulation to the 1 million 
years that EPA has proposed in the revision to 
its standard, to analyze changes resulting from 
recent design changes, and to support the 
University of Nevada, and Nye (NV) and Inyo (CA) 
counties in conducting independent scientific 
analyses.  We plan to continue scientific 
activities in future years in order to refine 
our understanding, provide added confidence in 
our models, and incorporate new information as 
appropriate.  Funding requirements are expected 
to remain about the same until a construction 
authorization is issued, and then decrease to 
about $30 to $50 million per year.


Global Nuclear Energy Partnership (GNEP)

Q30.	What is the importance of the Yucca 
Mountain project to the future of nuclear power?
A.		What are the benefits of GNEP 
for the Yucca Mountain project? 
B.		If GNEP is successful will there 
still be a need for Yucca Mountain? 
C.	Isn't GNEP evidence that the 
Administration is backing away from its 
commitment to Yucca Mountain?

A30.	Global Nuclear Energy Partnership (GNEP) 
technologies, when demonstrated, could have a 
significant positive impact on the Yucca 
Mountain repository including the reduction of 
waste volume, radiotoxicity, and heat load.

Successful commercial deployment of GNEP spent 
fuel recycling technologies, however, is many 
years, even decades in the future.  DOE does 
not intend to delay fulfilling its obligation 
to begin consolidating and disposing of the 
approximately 50,000 metric tons of commercial 
spent fuel already generated, as well as the 
approximately 2,000 metric tons being generated 
each year.  DOE plans to proceed with licensing,
constructing and operating the Yucca Mountain 
repository as planned.  If GNEP technologies 
are successfully deployed commercially, DOE 
will take the necessary steps to make the 
repository accommodate the changes in the 
waste stream.

While the potential waste minimization benefits 
of GNEP on Yucca Mountain could be positive, 
any changes to the operation of the Yucca 
Mountain repository would occur only after 
GNEP technologies have been adequately 
demonstrated.  Today, there will be no changes 
in the license application under development, 
and we will proceed with our current plan for 
the existing waste inventory as well as the 
waste being generated.

The Administration is not backing way from its 
commitment to Yucca Mountain.  On the contrary, 
the Government has the obligation to take and 
dispose of the Nation's waste, and our mission 
is to provide permanent geologic disposal under 
the Nuclear Waste Policy Act of 1982.  The GNEP 
initiative is a separate activity within the 
Department and, as such, does not detract from 
the Department's commitment to build a 
repository at Yucca Mountain.  A repository 
will be needed under any fuel cycle scenario.


Q31.		What is the projected cost of 
the GNEP program over its lifetime?

A31.	The Department's preliminary, 
order-of-magnitude estimate of costs for the 
GNEP initiative range from $20 billion to 
$40 billion.  This includes the cost of Nuclear 
Power 2010 and Yucca Mountain over the next 
ten years as well as the cost of demonstrating 
integrated recycling technologies.  The 
preliminary, order-of-magnitude costs 
associated with the demonstration of technologies 
would be substantially less, and have previously 
been estimated to range from $3 billion to 
$6 billion over the next ten years to bring 
those technologies to the point of initial 
operations.  In 2008, the Department will have 
more refined estimates of the cost and schedule 
to complete the full 20-year demonstration effort.


Q32.	Your testimony before Senate 
Appropriations states, "we will be looking for 
a sizable portion of GNEP costs to be shared by 
our partners and industry starting in 2008".  
What aspects does the Administration envision 
the industry funding and how much funding would 
the industry be expected contribute?

A32.	Industry and international partners have 
significant experience and capabilities that 
would support various aspects of the GNEP 
initiative.  While specific funding levels have 
not been set among possible participants, it is 
anticipated that cooperating on the development 
of these advanced recycle technologies would 
enable the U.S. to leverage its investment with 
fuel cycle partners, increasing the U.S. 
investment several fold.  


Q33.	What are the GNEP funding requirements 
for FY 2008 and succeeding years?  Does the 
Administration believe that this funding profile 
can be accommodated within the existing DOE budget?  
If so, what offsetting reductions in DOE activities 
is the Administration considering?��Considering 
that both GNEP and the Yucca Mountain programs 
will require dramatic funding increases in 
roughly similar timeframes, how can DOE 
accommodate those competing requirements 
within its budget?

A33.	The Department is currently developing 
more detailed cost estimates and work scopes for 
the GNEP Technology Demonstration Program.  The 
more detailed cost estimates will be used to 
identify the funding requirements for its 
implementation.

DOE expects to request sufficient funding to 
support GNEP and, in particular, the timely 
evaluation of the technical feasibility of 
various technologies taking into account 
competing priorities and budgets.  While no 
decisions have been made at this stage 
concerning whether there would be offsetting 
reductions in other programs, the Department 
is committed to seeking full and adequate 
funding for Yucca Mountain programs and has no 
intention to divert funds from Yucca Mountain 
programs to GNEP.  In particular, the Department 
believes the Nuclear Waste Fund should be used 
for its intended purpose and provide the basis 
for appropriations at levels that will result 
in beginning operation of the repository at 
Yucca Mountain as soon as possible.


Q34.	According to DOE's Global Nuclear Energy 
Partnership proposal, the United States�would 
provide nuclear fuel services to other countries 
including the return of spent fuel for reprocessing.  
Where will the ultimate waste product be disposed?

A34.	We do not envision accepting spent fuel 
pursuant to the GNEP initiative until there is 
sufficient advanced recycling capability available 
in the U.S.  At that time, we would have to 
consider the conditions under which the U.S. 
could reprocess another country's spent fuel.


Q35.	Deputy Secretary Sell testified that up 
to 90% of existing commercial used fuel could be 
recycled.  What is the basis for this estimate?

A35.	The Department's technical experts are 
confident that a very large percentage of existing 
or future U.S. inventories of commercial spent 
nuclear fuel may be suitable for recycling if the 
GNEP technologies ultimately prove to be successful. 
Some of the inventory of commercial spent fuel is 
known at this time to be not suitable for recycle 
using the separations technology under development 
by the Department.  This inventory includes the 
Three Mile Island damaged fuel, the graphite fuel 
from Fort St. Vrain, and other non-oxide-based 
fuels.


QUESTIONS FROM REPRESENTATIVE ALLEN

Q1.	Mr. Sell, in your written testimony you 
highlight the Department's intention to move 
towards a clean canister approach.
A.	Why is it necessary to repackage spent 
fuel that is already in NRC licensed canisters?  
What is wrong with the existing canisters?
B.	Do you intend for this approach to be 
applied to decommissioned plants?
C.	If yes, how do you anticipate 
decommissioned plants transferring spent fuel to 
new canisters if their facilities are completely 
closed and in some cases destroyed, except for 
the existing spent fuel storage containers?  
How is it logistically possible to make these 
transfers?
D.	Do you anticipate that ratepayers will 
pay the cost of these transfers to new canisters, 
even at decommissioned plants?
E.	Will you commit to making the movement 
of fuel from decommissioned plants a priority, 
if not first priority, in any scenario where 
Yucca Mountain becomes operational?

A1.	The Department is moving to implement a 
clean-canistered approach to spent fuel acceptance 
at the Yucca Mountain repository.  Currently, we 
are developing the performance specifications for 
this canister.  These specifications will include 
materials and features that are necessary to 
provide for the long-term isolation of the waste 
in the repository.  The Department understands 
that the current generation of dual-purpose 
canisters, which were licensed by the NRC for 
storage and transportation of spent fuel, do not 
incorporate the features required for long-term 
waste isolation.  As such, spent fuel stored in 
dual-purpose canisters would have to be repackaged 
prior to disposal.  

The other issues raised by part B through E of 
your question are currently the subject of ongoing 
litigation against the Government, and I cannot 
comment further at this time.


Q2.	Eight members of the New England Delegation 
sent a letter to Secretary Bodman, dated December 8, 
2005, asking him to address what we feel is the 
Department's failure to live up to its obligation to 
remove spent nuclear fuel from decommissioned plants 
in New England.  The Secretary's response, dated 
March 7, 2006, did not even contain the words 
"New England" in it.  It certainly gave no specifics 
about the Department's plans to remove spent fuel 
from the region.
A.	Mr. Sell, please describe, in detail, the 
Department's plan to fulfill its obligation to 
remove spent nuclear fuel from New England.
B.	Mr. Sell, please provide all pertinent data 
the Department has on its plans to remove spent fuel 
from decommissioned plants in New England, including 
the data and any and all memos and records of 
discussion that led to the formulation of Secretary 
Bodman's March 7, 2006 response to the New England 
Delegation letter of December 8, 2005.

A2.	The Department remains committed to develop 
the Yucca Mountain repository as expeditiously as 
possible to allow for the receipt of commercial spent
nuclear fuel from commercial nuclear power reactors.
The specific issue of priority acceptance of spent
fuel from decomissioned reactors raised by your 
question is currently the subject of ongoing
litigation against the Government, and I cannot
comment further at this time.



</pre></body></html>
